<html>
<title> - NEED FOR GREEN CARDS FOR HIGHLY SKILLED WORKERS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                    NEED FOR GREEN CARDS FOR HIGHLY 
                            SKILLED WORKERS

=======================================================================


                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 12, 2008

                               __________

                           Serial No. 110-89

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                     U.S. GOVERNMENT PRINTING OFFICE

42-851 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
LINDA T. SANCHEZ, California         LOUIE GOHMERT, Texas
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota
ANTHONY D. WEINER, New York

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 12, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     2
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     3
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     4

                               WITNESSES

Mr. Edward Sweeney, Senior Vice President, Worldwide Human 
  Resources, National Semiconductor Corporation
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Mr. Lee Colby, Electrical Engineer, Lee Colby & Associates, Past 
  Chair of The Institute of Electrical and Electronics Engineers, 
  Santa Clara Valley SECTION
  Oral Testimony.................................................    18
  Prepared Statement.............................................    19
Mr. John Pearson, Director of the Bechtel International Center, 
  Stanford University, Association of International Educators
  Oral Testimony.................................................    22
  Prepared Statement.............................................    24
Mr. Yongjie Yang, Legal Immigrant Association
  Oral Testimony.................................................    38
  Prepared Statement.............................................    39
Mr. Mark Krikorian, Executive Director, Center for Immigration 
  Studies
  Oral Testimony.................................................    40
  Prepared Statement.............................................    42
Ms. Jana Stonestreet, Chief Nursing Executive, Baptist Health 
  System
  Oral Testimony.................................................    51
  Prepared Statement.............................................    54
Ms. Cheryl A. Peterson, Senior Policy Fellow, American Nurses 
  Association
  Oral Testimony.................................................    61
  Prepared Statement.............................................    62
Mr. Steven Francy, Executive Director, RNS Working Together, AFL-
  CIO
  Oral Testimony.................................................    66
  Prepared Statement.............................................    68

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    79
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    79
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    81
Prepared Statement of the Honorable Earl Pomeroy, a 
  Representative in Congress from the State of North Dakota......    82
Prepared Statement of Mary Amundson, M.A., Center for Rural 
  Health, University of North Dakota School of Medicine and 
  Health Sciences................................................    83
Prepared Statement of Jack Krumholtz, Managing Director Federal 
  Government Affairs, Microsoft..................................    85
Letter from Darrell G. Kirch, M.D., the Association of American 
  Medical Colleges (AAMC)........................................    86
Letter from Rick Pollack, Executive Vice President, the American 
  Hospital Association...........................................    88
Letter from Roger Cochetti, Director--U.S. Public Policy, CompTIA    90
Letter from Immigration Voice, the National Cooperative of Health 
  Networks Association, the National Health Care Access 
  Coalition, the National Organization of State Offices of Rural 
  Health, the National Rural Health Association, the National 
  Rural Recruitment and Retention Network (3RNet), and the North 
  Dakota Hospital Association....................................    92
Letter from Michael D. Maves, MD, MBA, Executive Vice President, 
  CEO, the American Medical Association..........................    94
Letter from Nancy McClure, Senior Vice President, HealthPartners 
  Medical Group and Clinics......................................    95

                        OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

Report entitled Educating Tomorrow's Workforce, April 2008, submitted 
    by Edward Sweeney, Senior Vice President, Worldwide Human 
    Resources, National Semiconductor Corporation This report is 
    available at the Subcommittee and can also be accessed at:

    http://www.sia-online.org/downloads/K12_Catalog_2007-2008.pdf


            NEED FOR GREEN CARDS FOR HIGHLY SKILLED WORKERS

                              ----------                              


                        THURSDAY, JUNE 12, 2008

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 11:05 a.m., in 
Room 2237, Rayburn House Office Building, the Honorable Zoe 
Lofgren(Cchairwoman of the Subcommittee) presiding.
    Present: Representatives Conyers, Lofgren, Gutierrez, 
Waters, Smith, King, Goodlatte, and Lungren.
    Staff present: Blake Chisam, Majority Counsel; George 
Fishman, Minority Counsel; and Andres Jimenez, Majority 
Professional Staff Member.
    Ms. Lofgren. I understand that Mr. Goodlatte is on his way. 
So maybe we will begin just the opening portion of this 
hearing.
    Oh, here he is right now. Very good.
    Chairman Conyers. Speak of the devil.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    I would like to welcome the Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's 
hearing to explore the need for green cards for highly educated 
employees in the field of science, technology, engineering, and 
mathematics, otherwise known as STEM, as well as the situation 
in nursing.
    There is a recognized shortage of U.S. employees available 
to fill jobs requiring the highest educational levels, 
particularly in the field of STEM. According to the National 
Foundation for American Policy, major U.S. technology companies 
today average more than 470 U.S.-based job openings for skilled 
positions, while defense companies have more than 1,265 each, 
indicating U.S. businesses continue to experience difficulty in 
filling positions in the United States at the highest 
educational levels.
    At the same time our country is experiencing shortage in 
U.S. employees at the highest educational levels, employers 
from Europe, Australia, Canada, and even China and India are 
increasingly attracting to their shores the highly educated, 
high-achieving scientists, engineers, mathematicians, and 
researchers that are the foundation for innovation. In 2000, 
for example, 75 percent of the world's engineers were hired by 
U.S. employers. Just 6 years later, in 2006, that percentage 
had dropped to 63 percent.
    Today, more than half of the graduates from U.S. 
universities in master's and Ph.D. programs in science and 
engineering are foreign born. To ensure that America remains 
the greatest source of innovation in the world, we must not 
only educate more U.S. students in STEM. We must retain the 
best and brightest innovators among our graduates so that they 
can work with us rather than compete against us in other 
countries.
    In addition, at the same time that nursing schools are 
unable to produce enough nurses to meet existing health care 
needs around the country, the demand for nurses is projected to 
continue increasing at high rates as the baby boom generation 
hits retirement and birth rates plunge. Currently, 12.4 percent 
of the U.S. population is aged 65 and older. That percentage is 
projected to increase to 16.3 percent in 2020 and 20 percent in 
2030.
    I look forward to hearing from our witnesses today on how 
the current immigration system has failed to respond 
effectively to these economic and health care challenges and 
what might be done to address the situation in the near and 
long term.
    I would now like to recognize Mr. Goodlatte for his opening 
statement.
    Mr. Goodlatte. Well, thank you, Madam Chairman.
    It is important to note at the outset that this hearing is 
about legal immigration, not illegal immigration or amnesty. I 
have long believed that legal immigration has blessed our 
Nation with talent, diversity, and a commitment to freedom and 
the rule of law. In fact, those who have come to the country 
through the legal channels are often some of the most vocal 
opponents of the illegal immigration and amnesty. It is my hope 
that as we move forward, we can keep these issues distinct.
    I would also be one of the first to point out that our 
Nation's legal immigration system is flawed in many ways. For 
example, I am a strong opponent of the visa lottery program 
through which 50,000 aliens are chosen at random to come and 
live permanently in the United States based on pure luck. This 
program threatens national security, results in the unfair 
administration of our Nation's immigration laws, and encourages 
a cottage industry for fraudulent opportunists.
    In addition, it seems clear that our immigration laws do 
not sufficiently address the Nation's needs in the area of 
highly skilled workers. I believe that U.S. businesses should 
have access to the best and brightest workers in the world. 
U.S. workers have consistently been the best and brightest, and 
we are working to ensure that the U.S. continues to produce the 
most talented high-tech and STEM graduates. However, highly 
skilled talent is not limited to the U.S., and our immigration 
laws should help U.S. businesses attract and retain the best 
and brightest global talent.
    Unfortunately, we have backlogs for processing green cards 
that are simply unacceptable. In addition, the laws have not 
seemed to keep up with the demand for highly skilled workers in 
our dynamic economy. When faced with the prospect of waiting 
for many, many years to get their green cards approved, it is 
ever more attractive for H-1B workers to leave the U.S. and go 
to other countries with more stable and predictable immigration 
laws.
    To address these problems, I have introduced legislation 
with Chairman Lofgren to relieve the backlog of green card 
issuance for current H-1B employees. Our legislation eliminates 
the per-country caps for highly skilled immigrants which will 
reduce the waiting time for those workers who have been waiting 
in line the longest.
    In addition, from this year on, our bill would recapture 
any unused green cards for highly skilled immigrants each year 
and add them to the cap for the next fiscal year. This 
provision will help ensure that Government red tape and 
bureaucratic delay do not prevent legal immigrants in the high-
tech sector from obtaining their green cards, which will help 
to make America a more attractive place to come live and work.
    There are other proposals which have been introduced about 
which I have concerns. Instead of recapturing visas from this 
point forward, one proposal would reach far back into the past 
to recapture hundreds of thousands of visas. Such a proposal 
would surely bring with it new procedural problems as the 
Administration would likely struggle to handle the overwhelming 
new workload. We need to carefully consider the ramifications 
of such proposals.
    In addition, another piece of legislation would create a 
limitless number of green cards for foreign students who come 
to the U.S. and receive advanced degrees in math, science, and 
related fields. While granting U.S. businesses better access to 
this pool of applicants seems like a good idea, such a 
broadscale change needs careful consideration and review, 
including considering the effects that such a policy would have 
on the native U.S. labor pool. We would certainly not want to 
create a policy that has the effect of displacing our own 
talented U.S. workers at a time when our economy is struggling.
    Furthermore, most Members on my side of the aisle would 
like to couple any increase in legal immigration that benefits 
our economy and country with policy changes that would decrease 
the number of random green cards that are handed out through 
programs like the visa lottery which experts believe poses a 
national security threat.
    In summary, I would reiterate my strong desire for the 
majority to keep legal immigration issues separate from the 
issues of illegal immigration and amnesty. If we work together 
in a bipartisan fashion, I believe that we can achieve success 
in addressing many of our Nation's legal immigration problems 
this Congress.
    I look forward to hearing from our witnesses.
    Thank you, Madam Chair.
    Ms. Lofgren. Thank you, Mr. Goodlatte.
    I now would invite the Chairman of the full Judiciary 
Committee, Mr. Conyers, to give any opening statement he may 
have.
    Chairman Conyers. Thank you, Chairwoman Lofgren, and to all 
of my fellow Members of the Judiciary Committee.
    This is very important. It is also so fundamental. It is 
almost a little shocking that we have now figured out that we 
are going to give green cards to our graduates so that we can 
fill up this horrible vacuum that is going on, and I guess, you 
know, better late than never. I do not see what took so long to 
get here.
    I talk irregularly with the heads of the engineering 
departments and the school of nursing at Wayne State 
University, and we have a horrendous problem developing. First 
of all, in nursing, the young ones are not staying. The 
experienced ones are retiring, quitting. We have a tremendous 
problem.
    And at least a half-dozen Members of this Committee are on 
H.R. 676, the Universal Single-Payer Health Care bill, that we 
have been working on, and that anticipates that we will need 
lots more nurses and lots more schools and lots more people 
trained and able to teach nursing.
    Now that is the crisis right now. So we figured out that 
you have to start looking at dealing with that now, and I am 
proud of what SEIU is doing with the nurses, but this is just a 
mere beginning. This is just starting off with this problem. We 
have to look at this with a far more urgent attitude because we 
have to deal with these and deal with it fast.
    So I want to commend Chairwoman Lofgren and our Ranking 
Member Goodlatte and all of us here for working on this 
problem. It is a big one, and so I am just hopeful that we will 
begin to look at what is the holdup. We have to build more 
nursing schools and get more experts in to train, to teach in 
those skills, and we have to do it fast.
    So I am proud to be in on this modest STEM step forward, 
but there is a whole deeper layer of complex issues to be 
resolved, and I am glad it is here that we are looking at them 
in the Immigration Committee.
    I thank you.
    Ms. Lofgren. Thank you, Mr. Conyers.
    I would recognize the Ranking Member of the full Committee, 
Mr. Smith, for any statement he may have.
    Mr. Smith. Thank you, Madam Chair.
    I do have an opening statement.
    Is this mic on?
    Ms. Lofgren. Yes. They are all live all the time.
    Mr. Smith. Okay. Thank you.
    Madam Chair, the first thing I want to say is I am always 
impressed by Chairman Conyers' knowledge of so many subjects, 
and he just finished mentioning nurses, and I happen to agree 
with what he said about the nursing shortage and the need for 
additional nurses, and, of course, that also emphasizes again 
the need to admit people who have the skills and the education 
we need, and nurses are a prime example of that.
    While the U.S. grants permanent residence to over one 
million legal immigrants each year, only 5 percent are actually 
chosen based upon the skills and education they bring to the 
American economy. The vast majority of immigrants are selected 
because of their family relationships with U.S. citizens and 
permanent residents or even at random, as Mr. Goodlatte 
described a minute ago. This does not make sense in today's 
economy.
    First, the economy's thirst for highly skilled and educated 
workers has increased dramatically, yet the economy's 
preference for the more highly educated and skilled is ignored 
by our immigration system. Second, the much anticipated 
retirement of the baby boom generation is now upon us. In order 
to sustain a strong economy, we must replace these workers.
    So what type of immigrant should we be looking to attract? 
As the Congressional Research Service notes, industries such as 
leisure and hospitality that are known for having young low-
skilled workforces will not need to fill many jobs as a result 
of the baby boom retirements. Rather, other occupations and 
industries will need large numbers of skilled and educated 
workers. Suitable replacements are more likely to come from 
immigrants selected for their skills and education than from 
ones selected at random or through family relationships, yet 
this fact is ignored by our immigration system.
    To borrow a line from Harvard economist George Borjas, 
``Skilled immigrants earn more, pay higher taxes, and require 
fewer social services than less skilled immigrants.'' This is 
verified by the National Research Council which found that each 
immigrant with more than a high school education provides a net 
fiscal benefit to American taxpayers of $105,000 over their 
lifetime. On the other hand, each immigrant with less than a 
high school education imposes a net fiscal burden of $89,000 on 
taxpayers. It is clear that American taxpayers benefit from 
highly skilled and educated immigrants, but not from low-
skilled and uneducated immigrants, yet this is ignored again by 
our immigration system.
    Despite these facts, 95 percent of legal immigrants to the 
United States are not admitted based on their skills and 
education. So what is the result? Hundreds of thousands of new 
immigrants without a high school education arrive each year. 
This has a devastating impact on the wages and job 
opportunities of disadvantaged, native-born Americans.
    In 2003, there were 8.8 million unemployed native-born 
adults without a high school diploma--1.3 million who were 
unemployed and 6.8 million no longer even in the labor force. 
Native-born Americans comprise 68 percent of all workers 
employed in occupations requiring no more than a high school 
education. These are some of the Americans competing with low-
skilled and uneducated immigrants for jobs.
    Immigration is already having a depressing effect on the 
standard of living of vulnerable American workers. Steve 
Camarota at the Center for Immigration Studies has estimated 
that immigration has reduced the wages of an average native-
born worker in a low-skilled occupation by 12 percent a year, 
or almost $2,000. Mr. Borjas estimates that immigration in 
recent decades has reduced the wages of native-born workers 
without a high school degree by 7.4 percent.
    Congress should have revised our immigration policy long 
ago. Given the current state of the economy and the ever-
increasing retirement of baby boomers, we can no longer wait 
any longer. Congress has a responsibility to promote 
immigration policies that protect the American worker and 
promote a strong American economy. To do that, we must 
prioritize the immigration of high-skilled and educated 
individuals.
    I thank you, Madam Chair, and I will yield back.
    Ms. Lofgren. Thank you, Mr. Smith.
    And in the interest of proceeding to our witnesses and 
mindful of the schedule, other Members' opening statements will 
be made a part of the record, without objection.
    Today, we will hear from two panels of witnesses to help us 
consider the important issues before us.
    It is my pleasure first to introduce Edward Sweeney. Mr. 
Sweeney is a senior vice president in worldwide human resources 
at National Semiconductor Corporation, and he is the Chair of 
the Semiconductor Industry Association's semiconductor 
workforce strategy committee. He returned to National 
Semiconductor in May of 2002 after serving as vice president of 
worldwide human resources at Vitria Technology, Incorporated.
    Prior to that, Mr. Sweeney was vice president of human 
resources at Candescent Technologies Corporation, a 
manufacturer of flat-panel displays. From 1983 to 1998, Mr. 
Sweeney served as a vice president of human resources for 
National Semiconductor's central manufacturing technology group 
and also for the company's analog products group. He also 
directly supported National's worldwide sales and marketing 
organization and the company's manufacturing facility in 
Greenock, Scotland.
    Mr. Sweeney has a bachelor's degree in organization 
behavior and a master's degree in human resources and 
organization development both from the University of San 
Francisco, and he is from my neck of the woods.
    So glad to have you here today.
    Next, I would like to introduce Lee Colby. Mr. Colby is an 
electrical engineer who has 50 years of experience in the high-
tech field. After a 36-year career with Hewlett-Packard, Mr. 
Colby helped found his own technology company, O'LE 
Communications, and now runs his own consulting firm, Lee Colby 
& Associates.
    As the past chair of the Santa Clara Valley Section of the 
Institute of Electrical and Electronics Engineers, Mr. Colby 
represented over 13,000 technology engineers in the Silicon 
Valley area, my home. He is speaking to us today as an 
engineer, a business owner, and a manager with decades of 
experience with the high-tech world.
    Next, I am pleased to welcome John Pearson. Mr. Pearson was 
born in Manchester, England, and first came to the United 
States in the summer of 1969. Beginning in the early 1960's 
after completing degrees in American studies at the University 
of Wales and University of London, Mr. Pearson studied and then 
worked at the University of Tennessee from 1971 to 1985.
    He has been working at Stanford University, again my neck 
of the woods, since 1985 and has been director of the Bechtel 
International Center since 1988. His work at Stanford focuses 
both on services to foreign students and scholars and to U.S. 
students applying for such scholarships as Fulbright, Rhodes, 
Marshall, Mitchell, Gates, and Luce.
    Next, I would like to introduce Dr. Yongjie Yang who is a 
current post-doctoral research fellow in the neurology 
department of Johns Hopkins University. Dr. Yang came to the 
United States for graduate study in 2000 and was awarded his 
Ph.D. in neuroscience and genetics from Iowa State University 
in 2005.
    Dr. Yang's current studies focus on the interaction of 
neuron and astrocyte interaction and their dysfunction in 
neurodegenerative diseases, including Alzheimer's disease, 
Parkinson's disease, and in particular ALS, known as Lou 
Gehrig's disease. He has personal experience with the U.S. 
immigration system.
    And, finally, I would like to introduce Mark Krikorian. Mr. 
Krikorian is the executive director of the Center for 
Immigration Studies, a research organization here in 
Washington, DC, that examines the impact of immigration on the 
United States. Mr. Krikorian has published articles in The 
Washington Post, The New York Times, and the National Review, 
among other publications. He holds a master's degree from the 
Fletcher School of Law and Diplomacy and a bachelor's degree 
from Georgetown University and is the minority's witness at 
today's hearing.
    Your written testimony will be made part of our official 
record. We would ask that your oral testimony consume about 5 
minutes, and that little light on the table will tell you when 
your time is up. When the yellow light goes on, it means you 
have just 1 minute to go. When the red light goes on, it means 
you have actually been speaking for 5 minutes. It always 
surprises me. We do not have a heavy gavel here, but, at that 
point, we would like you to wrap up so that we can have an 
opportunity to hear the second panel and also to ask questions.
    So, Mr. Sweeney, if we could begin with you.

 TESTIMONY OF EDWARD SWEENEY, SENIOR VICE PRESIDENT, WORLDWIDE 
      HUMAN RESOURCES, NATIONAL SEMICONDUCTOR CORPORATION

    Mr. Sweeney. Good morning. My name is Eddie Sweeney, and I 
am the Senior Vice President, Worldwide Human Resources, at 
National Semiconductor Corporation and the Chair of the 
Semiconductor Industry Association workforce strategy 
committee. Today, I am pleased to testify on behalf of the 
Semiconductor Industry Association. The SIA represents the 
semiconductor U.S. industry, which employs 216,000 U.S. 
employees and is America's second largest exporter.
    Today, I would like to cover three key points: the 
important role the foreign nationals play in the success of our 
companies, the problems created by the current U.S. immigration 
policy, and the joint positions that the SIA has taken with the 
Institute of Electrical and Electronic Engineers USA.
    Let me first note that the SIA believes that high-skilled 
immigration reform is part of a broader set of policies needed 
to promote innovation in America. We believe that we must also 
increase Federal support for basic research, enact true 
innovation tax policies, such as a permanent R&D tax credit, 
and improve science, engineering, and math education at the K-
12 level.
    With this context in my mind, let me cover my first key 
point, the importance of foreign nationals to our companies. 
Semiconductor components are the most complex products 
manufactured on the planet with millions, and in some cases 
billions, of circuits integrated on slivers of silicon the size 
of your fingernail. To design these devices, we need to hire 
the brightest minds from our Nation's universities.
    Each year, about half of our total recruitment activity 
comes from university hiring. However, when we go on campus, we 
find that 51 percent of the engineering master's graduates and 
71 percent of the engineering Ph.D. graduates are foreign 
nationals.
    Let me repeat these numbers because this is the crux of our 
issue. More than one in two of every master's engineering 
graduate in a U.S. school is a foreign national, and almost 
three out of every four Ph.D. graduates are foreign nationals.
    This brings me to my second point: the problem that is 
created by our U.S. immigration policy. As the Committee well 
knows, the annual allotment of H-1B visas is filled within 
days, if not hours, after the DHS accepts applications and then 
decides by lottery who can best contribute to our economy. What 
is not so well known are the problems created by the caps on 
permanent resident visas or green cards.
    SIA companies seek green cards for almost all of our H-1B 
hires, so the caps are a major problem for us. We are not 
talking about large numbers. In 2007, the entire semiconductor 
industry sought green cards for less than 4,000 employees. 
Although relatively few in number, these employees are 
nonetheless critical to the design of our new products, to 
helping customers adopt semiconductors in their end systems, 
and to researching the next generation of semiconductor 
technology, and these are all tasks that create additional 
jobs, high-paying jobs, in other parts of our companies, such 
as in sales, production, and administration.
    The green card quota cap has forced employees to wait for 
years for permanent residency during which time their ability 
to move within their company or to be promoted is restricted. 
Furthermore, during this period, their spouses may not work, 
and their home life is essentially put on hold. Needless to 
say, many individuals become frustrated and frequently seek 
alternatives, either with another employer or with the same 
employer overseas.
    Many U.S. companies are finding workaround solutions that 
often involve creating R&D locations in overseas locations, 
meaning that the downstream benefits of our U.S. higher 
education system are not accruing to the U.S. Rather than 
sending these scientists home into the arms of our foreign 
competitors, our employees are often finding themselves 
creating jobs for these people in their foreign subsidiaries 
when they could otherwise be employed in the U.S.
    Addressing this challenge brings me to my third point: the 
SIA's work with the IEEE-USA. Our organizations' differences on 
H-1B issues have been widely publicized, but we both agree that 
the current immigration system is broken. Last October, we 
arrived at a common position which is detailed in our written 
testimony. It includes raising the green card cap with an 
exemption for master's and Ph.D.s in science and engineering 
and allowing science and engineering graduates to transition 
directly from student visas to green cards.
    In May, the SIA and IEEE-USA followed up its letter on 
long-term reforms with specific support for H.R. 5882, 5921, 
and 6039. These three bills will help talented foreign 
nationals create jobs in America and help our industry to 
export products and not jobs.
    The SIA and IEEE-USA worked hard to find common ground, and 
we urge Congress to similarly work in a bipartisan basis to 
pass these important bills this year. This matter is of urgent 
and critical importance to our industry.
    Thank you.
    [The prepared statement of Mr. Sweeney follows:]
                  Prepared Statement of Edward Sweeney
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you.
    All the bells are telling us that we have actually five 
votes on the floor of the House, so that is going to interrupt 
our hearing. But perhaps we can get one more witness statement 
in before we adjourn to the floor. We will be gone probably for 
about 40 minutes, is my guess, with apologies, but we have to 
go.
    So, Mr. Colby, if we could hear from you now, and then we 
will come back and hear from the others.

   STATEMENT OF LEE COLBY, ELECTRICAL ENGINEER, LEE COLBY & 
   ASSOCIATES, PAST CHAIR OF THE INSTITUTE OF ELECTRICAL AND 
       ELECTRONICS ENGINEERS, SANTA CLARA VALLEY SECTION

    Mr. Colby.0 Good morning, Congressman Lofgren.
    My name is Lee Colby, and I am testifying today on behalf 
of IEEE-USA, which represents a group of engineers 215,000 
strong in the United States, of which 22 percent are foreign-
born Americans.
    I have been a professional electrical engineer for over 50 
years in Santa Clara Valley. In fact, I was in the Valley when 
it was called the Valley of Hearts Delight. For my first 36 
years of my career, I worked at Hewlett-Packard as an 
electrical engineer.
    I left HP in 1997 and started Lee Colby and Associates 
which consults on circuit and system designs for some of the 
world's leading technology firms. In 2000, I decided to try my 
hand in a technology startup, O'LE Communications, as chief 
technical officer.
    It was at O'LE that I had my most direct experience with 
our immigration system. We employed about 24 employees, half in 
Taiwan and half in the United States. During the dot.com boom, 
we had trouble finding American workers, so we turned to the H-
1B program. When the dot.com boom burst, those workers were 
unable to transfer to another company and so had to leave. H-1B 
workers are effectively tied to their employer, creating a 
dependency that is both unjust and harmful.
    In 2005, I chaired, as Chairwoman Lofgren said, the IEEE 
Santa Clara Valley section, representing over 13,000 electrical 
and electronics engineers in the San Jose area. I also, though, 
volunteer as a math and science teacher assistant at the 
Sunnyvale Middle School and teach a class in fuel cells and 
solar cells for advanced high school children at San Jose State 
University.
    In other words, I know both ends of the technology sector 
inside and out. For almost 50 years, I have been deeply 
involved with cutting-edge technology and the men and women who 
developed it. I understand the problems faced by engineers and 
employers, and I believe the approach to high-skill immigration 
reform being offered by Chairman Lofgren is a good one for all 
parties.
    Earlier this year, the House Immigration Subcommittee, 
Chair Zoe Lofgren, and a bipartisan team of legislators 
introduced three important proposals. We support all three 
bills, as noted in the record. I am especially pleased to see 
that H.R. 6039 would allow graduate students to move quickly 
from a student visa to a green card.
    Remember it is not a question of whether the talented 
graduates of our schools get jobs but only where those jobs 
would be located, and if we force them to leave, the jobs 
created by the world's most talented people will not be in our 
country, but rather in whatever nation had the foresight to 
accept them.
    Today, my neighborhood is filled with workers on H-1B 
visas. In the evening, while walking Heidi, my miniature 
schnauzer, they tell me what they will do once they become 
American citizens. They plan to start their own companies, 
create exciting and profitable new products--entirely new 
industries, in some cases. Why are we making them leave?
    On the plane coming over, I met James Stubbs, chief science 
officer of Cianna, a small 35-person medical company. They make 
a cutting-edge device for treating breast cancer. They employ 
two H-1Bs. One is from Costa Rica and is in their advanced 
research R&D. The other is from India and does field research. 
Both of these H-1Bs are integral to the success of their 
company. Do you want the company to be successful for 6 years 
or 30 years?
    Temporary visas like H-1B do nothing to enhance America's 
long-term competitiveness. They are a short-term fix that will 
weaken us in the long run. The H-1B visa is a great way to 
train our overseas competition but is an awful way to build our 
workforce.
    Innovative companies do not need innovative people for 6 
years. They need them for 30. Moreover, H-1B visa engineers are 
easy to exploit, harming both American and foreign engineers. 
America does not need skilled temporary workers. We need 
skilled Americans, and citizenship requires at least an EB 
visa.
    In conclusion, IEEE-USA members share the belief that 
making foreign nationals with the knowledge, skills, and 
determination citizens has always served America's best 
interests. We urge Congress to reform the Nation's permanent 
employment-based admissions system. An integration policy based 
on the concept of green cards, not guest workers, will help 
America create jobs, maintain its technological 
competitiveness, and ensure our success.
    The goal of U.S. immigration policy should be to facilitate 
the entry of talented people, including potential inventors, 
innovators, and entrepreneurs from other countries. Congress 
should grant them legal permanent resident status and put them 
on a path to full-fledged American citizenship.
    Thanks, Congresswoman Lofgren and fellow Committee Members, 
for the opportunity to speak to you about the future of the 
United States of America. Congress, please pass the Lofgren 
bill.
    Thank you.
    [The prepared statement of Mr. Colby follows:]
                    Prepared Statement of Lee Colby
    Thank you for inviting me to speak today. My name is Lee Colby and 
I am testifying today as a member of the Institute of Electrical and 
Electronics Engineers-United States of America (IEEE-USA). The 
Institute of Electrical and Electronics Engineers (IEEE) is a multi-
national professional/technical society made up of more than 375,000 
individual electrical, electronics, computer and software engineers in 
150 countries. IEEE-USA promotes the professional careers and 
technology policy interests of IEEE's 215,000 U.S. members, 22% of whom 
were born in other countries.
    I have been a professional electrical engineer in Silicon Valley 
for almost fifty years. In fact, I was in Silicon Valley when it was 
still known as the Valley of Hearts Delight. For the first 36 years of 
my career I worked as an electrical engineer for Hewlett-Packard. I 
left HP in 1997 and started Lee Colby and Associates which consults on 
circuit designs for some of the world's leading technology firms. In 
2000 I decided to try my hand in a technology start-up, O'LE 
Communications.
    It was at O'LE that I had my most direct experience with our 
immigration system. We employed about 24 employees, half in Taiwan and 
half in the U.S. During the dot.com boom, we had trouble finding 
American workers, so we turned to the H-1B program. When the dot.com 
boom burst, those workers were unable to transfer to another company 
and so had to leave. This is not uncommon. H-1B workers are, 
effectively, tied to their employer, creating a dependency that is both 
unjust and harmful. It would have been better if we could have hired 
all of our workers as permanent residents, but that is simply not a 
practical option, especially for small firms.
    In 2005, I served as Chair of IEEE's Santa Clara Valley Section, 
representing over 13,000 electrical, electronics and computer engineers 
in the San Jose area. I also volunteer as a math and science teacher's 
assistant at the Sunnyvale Middle School and teach a class on fuel and 
solar cells for advanced high school students at San Jose State during 
the summer.
    In other words, I know the technology sector inside and out. For 
almost 50 years I have been deeply involved with cutting edge 
technology and the men and women who developed it. I understand the 
problems faced by engineers and employers. And I believe the approach 
to high-skill immigration reform being offered by Chairwoman Lofgren is 
a good one for all of the parties involved.
importance of education, infrastructure and immigration for us economic 
                   and technological competitiveness
    Continuing US economic and technological leadership in the 21st 
Century will depend in no small part on the nation's ability to marshal 
the resources and the will to:

        1)  increase high quality educational opportunities for US 
        students at all levels, especially in critical disciplines like 
        math and science;

        2)  improve America's high tech infrastructure, including its 
        basic and applied research and development capabilities; and

        3)  enact immigration reforms that will give priority to the 
        legal permanent admission of persons with the knowledge, skills 
        and talents needed to sustain America's unparalleled tradition 
        of invention, innovation and entrepreneurship.

    Balanced reforms in the nation's legal permanent and temporary 
admissions programs are particularly important if U.S. employers and 
U.S. workers are to compete and succeed in an increasingly knowledge-
based, technology-driven global economy. Instead of becoming more 
dependent on temporary non-immigrant visa programs, like the H-1B, 
IEEE-USA recommends that Congress make permanent immigrant admissions 
programs the preferred option for adding skilled and educated workers 
to our economy.
    To this end, IEEE-USA urges Congress to put aside longstanding 
partisan differences and take immediate steps to:

        1)  Increase the availability of permanent, employment-based 
        (EB) visas and streamline the immigrant admissions (Green Card) 
        process in order to make these visas the preferred path to 
        legal permanent resident status and full citizenship for 
        foreign professionals in STEM fields,

        2)  Allow foreign students who earn advanced degrees in STEM 
        fields from U.S. colleges and universities to transition 
        directly from temporary student visas to legal permanent 
        resident (Green Card) status,

        3)  Reform the H-1B temporary work visa program to ensure that 
        U.S. and foreign workers are treated fairly by requiring all 
        participating employers to make good faith efforts to recruit 
        U.S. workers, to use the H-1B program to augment, not replace 
        American workers and to pay H-1B workers fair, market-based 
        wages, and

        4)  Expedite visa processing for trusted short-term visitors, 
        including foreign professionals who come periodically to attend 
        conferences and meetings, to teach, or to conduct research in 
        the United States.
    two lofgren bills address permanent employment-based admissions
    Earlier this year, House Immigration Subcommittee Chair Zoe Lofgren 
and a bipartisan team of like-minded legislators introduced three 
important permanent immigrant admissions reform proposals. Two of these 
bills make simple, easy to implement reforms that will reduce the 
waiting times that talented people--and their prospective employers--
must currently endure before they can be admitted permanently to live 
and work in the United States.

        <bullet>  HR 5882 will help to reduce the backlog for highly 
        skilled admissions by recapturing an estimated 220,000 
        employment-based Green Cards that were not issued between 1992 
        and 2007 due to bureaucratic inefficiencies.

        <bullet>  HR 5921 will further reduce administrative backlogs 
        and waiting times by eliminating per country limits on 
        employment-based admissions from high demand countries like 
        India, the Philippines and Mexico. If the U.S. needs to add 
        skilled workers to our economy, and I think we do, why do we 
        care which countries they come from?

    I believe there are at least two additional reforms that Congress 
should consider to further increase the availability of immigrant visas 
for foreign-born high tech professionals.
    One would be to raise the statutory admissions ceiling on permanent 
employment-based visas. The current 140,000 annual limit is unduly 
restrictive and should be expanded.
    Another would be to exclude spouses and minor children from the 
annual cap. Such a step would free up as many as 60,000 additional 
employment-based visas per year for the exclusive use of principals, 
including high tech professionals.
    third lofgren bill addresses high tech talent retention problems
    Representative Lofgren's third proposal--and an identical bill, S. 
3084, recently introduced by Senators Barbara Boxer (D-CA) and Judd 
Gregg (R-NH)--addresses a growing high tech talent retention problem 
that adversely affects many U.S. businesses, educational institutions 
and government agencies.
    HR 6039 will exempt foreign nationals with advanced degrees in STEM 
fields from U.S. educational institutions from the limits on permanent 
employment-based admissions. If enacted, this reform will enable 
foreign students with U.S. graduate degrees in technology-based 
disciplines to get Green Cards upon completion of their studies rather 
than having to return to their home countries or remain here for as 
long as a decade on a temporary (non-immigrant) visa until a Green Card 
becomes available.
    Graduates from American schools are among the most sought after 
employees in the world. This is especially true of students who receive 
Masters and PhD degrees in STEM fields. America has already invested in 
these students' education. The students speak English, have lived here 
for several years and, to qualify for an employment-based visa, have a 
job. It is in America's interest and Americans' interest that we allow 
them to put their talents and education to work here.
    Remember, it is not a question of whether the talented graduates of 
our schools will get jobs, only of where these jobs will be located. If 
we force them to leave, the jobs they create will not be in this 
country, but rather in whatever nation had the foresight to accept 
them.
    IEEE-USA and the Semiconductor Industry Association (SIA)--two 
groups that have long been on opposite sides of the table on temporary 
work visa issues--have joined forces to promote prompt enactment of all 
three Lofgren proposals. Our two organizations are very encouraged by 
the possibility that Chairwoman Lofgren's reform bills will help to 
shift the focus of the debate about high tech immigration away from the 
controversial H-1B program to immigration reform proposals on which 
America's business organizations, educational institutions, labor 
unions and professional societies are more likely to agree.
             why immigration is better than temporary visas
    My beliefs on this subject have been informed by my 50 years as an 
electrical engineer and my deep involvement with the engineering 
community. During my service as Chair of IEEE's Solid State Circuits 
Society Chapter in San Jose, 15% of our members, all highly trained 
engineers, were without jobs. I have had friends replaced by H-1B visa 
holders and had friends have their jobs moved overseas. I have seen 
companies, including my own, lose business opportunities because they 
could not find the right skilled people. I have also lost some of my 
best employees and friends when their H-1B visas expired, forcing them 
to leave the country.
    Today, my neighborhood is filled with workers on H-1B visas. While 
walking my miniature schnauzer in the evening, they tell me what they 
will do once they become American citizens. They plan to start their 
own companies, create wondrous (and profitable) new products, entirely 
new industries in some cases. What I would like to know is: Why are we 
making them wait, and making our country wait, before letting them 
fully contribute to our society? How is this in our country's interest?
    The United States needs more skilled engineers and scientists. We 
need to educate more of our own students in these fields, but the 
United States does not have a monopoly on talent. There are hard 
working, innovative and smart people all over this planet, many of whom 
would apply their skills here, if given a chance. Congress needs to 
give them that chance.
    But how that opportunity is offered counts more than the offer 
itself. Temporary visas, like the H-1B, do little to enhance America's 
long-term competitiveness. They are a short-term fix that will weaken 
us in the long-run.
    The H-1B visa is a great way to train our overseas competition, but 
it is an awful way to build our workforce. Innovative companies do not 
need innovative people for six years--they need them for thirty. 
Moreover, the subservient position H-1B visa place workers in makes 
them easy to exploit, harming both American and foreign engineers.
    America does not need skilled temporary workers. We need skilled 
Americans. And American citizenship requires an EB visa.
                               conclusion
    IEEE-USA is convinced that welcoming foreign nationals with the 
knowledge, skills and determination needed to succeed and making them 
citizens has always served America's best interests. Accordingly, we 
urge Congress to make needed reforms in the nation's permanent, 
employment-based admissions system rather than simply raising the H-1B 
visa cap. We firmly believe that an immigration policy based on the 
concept of ``Green Cards, Not Guest-workers'' will do far more to help 
America create jobs, maintain its technological competitiveness, and 
ensure its economic and military security than continuing to rely on 
temporary admissions programs.
    The goal of U.S. immigration policy should be to facilitate the 
entry of talented people--including potential inventors, innovators and 
entrepreneurs from other countries. Congress should grant them legal 
permanent resident status and put them on a path to full-fledged 
American citizenship.
    Congress should pass the Lofgren EB reform bills.

    Ms. Lofgren. Thank you very much, Mr. Colby.
    We are now going to adjourn to vote on the floor of the 
House. We will recess, and I think we will not be back before 
12:15. Let's say we will be back at 12:25, if at all possible. 
There is a cafeteria and coffee shop in the basement, if people 
want to get a cup of coffee, and we will see you, we hope, 
about 25 minutes after 12.
    [Recess.]
    Ms. Lofgren. So the Subcommittee will come back to order, 
with apologies to all for the interruption.
    We are eager, however, to hear the rest of our witnesses as 
well as the second panel. I think we have a window of about an 
hour and a half before the next set of votes.
    So we will proceed promptly to Mr. Pearson.

      STATEMENT OF JOHN PEARSON, DIRECTOR OF THE BECHTEL 
   INTERNATIONAL CENTER, STANFORD UNIVERSITY, ASSOCIATION OF 
                    INTERNATIONAL EDUCATORS

    Mr. Pearson. Madam Chairwoman and distinguished Members of 
the Subcommittee, thank you very much for the opportunity to 
testify this morning in support of H.R. 6039.
    My name is John Pearson, and I am director of the Bechtel 
International Center at Stanford University. I am testifying 
today on behalf of my professional association, NAFSA, the 
Association of International Educators. NAFSA is the world's 
largest professional association dedicated to the promotion and 
advancement of international education and exchange. I am also 
testifying with support from Stanford.
    My remarks today will focus on the broad challenges the 
United States now faces in attracting and retaining 
international students. Of specific interest, of course, is the 
current law capping the number of green cards issued annually, 
even to those who graduate from U.S. colleges and universities 
with higher degrees.
    The United States is in a global competition for 
international students and scholars. That may seem like an 
unremarkable statement, but often U.S. law and policy does not 
always reflect an understanding of this reality.
    Though the U.S. is renowned and still renowned for being 
home to the majority of the top colleges and universities in 
the world, the international student market is being 
transformed in this century. There are many new players in the 
game, acting much more purposefully and strategically than ever 
before.
    Competitor countries have implemented strategies for 
capturing a greater share of this market. Their governments are 
acting to create more streamlined visa and entry processes and 
more welcoming environments and are setting goals for 
international student recruitment.
    Our neighbor, Canada, recently changed its employment 
policy to allow international graduates to work for up to 3 
years after graduation, and, in fact, Canada does recruit 
international students on our own campuses, including my own. 
They have visited Stanford three times in the last few years to 
talk to students about opportunities in Canada.
    At Stanford, we have been recently dealing with the 
homeland security extension on practical training for STEM 
students. A broader context is that France, Germany, the United 
Kingdom, and Canada have all made similar changes to the 
possibilities for international students remaining in those 
countries and working after graduation.
    New competitors will also enter the market for 
international students. Primary among them is the European 
higher education area which compromises the signatories to the 
Bologna Declaration. This goal is to create a seamless higher 
education system in Europe by 2010 with credits entirely 
transferrable among their higher education institutions and 
often instruction in English. The European Union is also 
considering a blue card, similar to our green card, to be more 
competitive for non-European talent.
    Other countries are recognizing the value of educating the 
next generation of leaders and attracting the world's 
scientific, technological, and intellectual elite. U.S. 
immigration law and policy has not yet effectively been adapted 
to this era of globalization. My own institution has been 
witness to this, as we also offer services to hire foreign-born 
faculty and researchers.
    But even so, many of the best and the brightest around the 
world still wish to come here and study. We should welcome them 
by creating a clearer path to green card status for them that 
is not tied to these low caps on the green cards available 
annually.
    In a global job market, employers look for the talent they 
need wherever they can find it, and students and highly 
talented workers look for the places to study and work that 
offer them the most opportunity. This means the options for 
employment after graduation are integral to attracting bright 
and talented international students.
    Employment prospects are often a part of their calculus in 
deciding where to study, work, and live. Not all students who 
arrive in the U.S. wish to remain. Some have commitments to 
their home country. But others discover their potential in the 
environment of U.S. higher education and their career and life 
goals are changed. Google, Hotmail, Yahoo are some examples in 
Stanford's own backyard of former students who have remained in 
the United States.
    I do not think it is a secret that U.S. immigration law 
often makes it difficult for international students to work 
after graduating, even from the most prestigious U.S. higher 
education institutions. The annual H-1B cap lottery is reported 
internationally, highlighting that the entire annual allotment 
is depleted in a day or two.
    In conclusion, what better way to capture the world's best 
and brightest who want to become part of our Nation than to 
make it easier for them to remain to contribute to American 
economic and scientific leadership after they graduate from 
U.S. universities? It is with these comments that I am 
delighted to support H.R. 6039.
    Thank you very much.
    [The prepared statement of Mr. Pearson follows:]
                   Prepared Statement of John Pearson
    Madam Chairwoman and distinguished Members of the subcommittee, 
thank you very much for the opportunity to testify this morning in 
support of H.R. 6039. My name is John Pearson and I am the Director of 
the Bechtel International Center at Stanford University. I am 
testifying today on behalf of my professional association, NAFSA: 
Association of International Educators. NAFSA is the world's largest 
professional association dedicated to the promotion and advancement of 
international education and exchange, with over 10,000 members. Last 
month NAFSA had its 60th annual conference in Washington, DC, with over 
9,000 attendees. I also testifying with support from my own institution
    My remarks today will focus on the challenges the United States now 
faces in attracting and retaining international students. Of specific 
interest today is the current law capping the number of green cards 
issued annually, even to those who graduate from U.S. colleges and 
universities with degrees. This limitation on the talent in high demand 
by our knowledge- and innovation-based economy will make it 
increasingly difficult to attract and retain these bright and talented 
students with every passing semester.
           i. a global competition for international students
    The United States is in a global competition for international 
students and scholars. That may seem like an unremarkable statement, 
but U.S. law and policy do not always reflect an understanding of this 
new reality. Though the United States is renowned for being home to the 
majority of the top colleges and universities in the world, the 
international student market is being transformed in this century. 
There are many new players in the game, acting much more purposively 
and strategically than ever before. Consequently, the best and 
brightest from around the globe are now aggressively recruited, and are 
able to choose from more options than ever before.
    Competitor countries have implemented strategies for capturing a 
greater share of the market. The UK and Australia are the classic 
examples. Their governments are acting to create more streamlined visa 
and entry processes and more welcoming environments, and are setting 
increasingly aggressive goals for international student enrollment. Our 
neighbor, Canada, recently changed its employment policy to allow 
international graduates to work for up to three years after graduation. 
Canada recruits our international students on our campuses, including 
my own, highlighting Canada's more liberal employment policies. That is 
not to say that our competitors don't have their own problems--they do. 
But we are not acting as strategically to take advantage of their 
weaknesses as they are to take advantage of ours.
    New competitors have entered the market. Primary among them is the 
European Higher Education Area, which comprises the signatories to the 
Bologna Declaration, including the European Union and other European 
states. The goal is create a seamless higher education system by 2010, 
with credits entirely transferable among their higher education 
institutions. Potentially, all the European higher education systems 
will work together with free movement of students among them as a 
counterpart to the United States. The EU is also considering a ``Blue 
Card'' similar to our green card to be more competitive for non-
European talent.
    Furthermore, countries once thought of as ``sending countries'' are 
building their indigenous higher education capacity and are encouraging 
students to stay home for their education so as not to lose them to the 
United States. China is engaged in a dramatic expansion and opening of 
its higher education system, and India is also emphasizing keeping its 
students home.
                   ii. green cards for u.s. graduates
    Other countries are recognizing the value of educating the next 
generation of world leaders and attracting the world's scientific, 
technological, and intellectual elite. U.S. immigration law and policy 
have not yet effectively been adapted to the era of globalization. My 
own institution is witness to this, but it is not alone. Even so, the 
best and the brightest still want to come here. We should welcome them 
by creating a clearer path to green card status for them that is not 
tied to unnecessarily low caps on the green cards available annually.
    In a global job market, employers look for the talent they need 
wherever they can find it, and students and highly talented workers 
look for the places to study and work that offer them the most 
opportunity. This means that options for employment after graduation 
are integral to attracting bright and talented international students. 
Employment prospects are now a part of their calculus in deciding of 
where to study, work, and live. Not all students who arrive to study in 
the U.S. wish to remain; some have commitments to their home country. 
But others discover their potential in the environment of U.S. higher 
education and their career and life goals are changed.
    It is no secret that U.S. immigration law makes it difficult for 
international students to work after graduating, even from the most 
prestigious U.S. higher education institutions. The annual H-1B cap 
lottery is reported internationally, highlighting that the entire 
annual allotment is depleted in a day or two. But the truth behind the 
overwhelming demand for H-1Bs is that many if not most of the 
applicants would rather be applying for a green card, but are unable to 
do so because of backlogs and delays. It is fair to say that many 
employers would also like to be able to make some of these students 
permanent employees sooner, rather than later.
    It does not make sense that in a global competition for highly 
educated and talented workers, we turn away the graduates from our 
colleges and universities. This is doubly true for those graduating 
with Master's degrees and Ph.Ds. When they leave the United States, 
they go to work in other countries for companies that often directly 
compete with American companies.
    What better way to capture the world's best and brightest who want 
to become part of our nation than to make it easier for them to remain 
to contribute to American economic and scientific leadership after they 
graduate from U.S. universities? Our ability to remain competitive and 
build our innovation- and knowledge-based economy requires that our 
laws reflect the reality of the global market for talent for 
international students and highly educated workers. Creating a clearer 
path to green card status for graduates from U.S. colleges and 
universities, in STEM subjects, would be a serious step in showing that 
we have a commitment to continuing to be the leader in international 
education and in industry.
    Madam Chairman, appended to my testimony is NAFSA's 2006 report, 
Restoring U.S. Competitiveness for International Students and Scholars, 
which I ask to be included in the record.
    Thank you again for the opportunity to testify. I will be pleased 
to respond to questions.

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you very much, Mr. Pearson.
    Dr. Yang, we would be delighted to hear from you.

                  STATEMENT OF YONGJIE YANG, 
                  LEGAL IMMIGRANT ASSOCIATION

    Mr. Yang. Good afternoon, Madam Chairwoman and Congressman 
King and Members of the Committee.
    I want to first thank the representative, Congresswoman Zoe 
Lofgren, for giving this opportunity for me to testify here, 
and I would like to share my personal experience on permanent 
residence application with this panel, and along with other 
people's testimony, I would like to draw attention for the 
America's need to change the laws regarding the highly skilled 
immigrants.
    My name is Yongjie Yang. I was born in China and came here 
in 2000 when I was admitted to the neuroscience center genetics 
program in Iowa State University, and there I basically focused 
on the mechanisms for environmental toxin-induced nerve-cell 
degeneration, which is highly relevant to the Parkinson disease 
research. I was awarded Ph.D. degree in genetics and the 
neuroscience in 2005. That same year, my wife also was awarded 
the master degree from also Iowa State University.
    Currently, I am now a research scientist in the department 
of neurology at Johns Hopkins University, and my current work 
also focuses on the pathogenic mechanisms in neurodegenerative 
diseases, including Alzheimer disease, Parkinson's disease, and 
amyotrophic lateral sclerosis, also known as Lou Gehrig's 
disease.
    Our lab is one of the best leading labs in the research of 
this disease in the world. By better understanding the 
pathogenic mechanism for the disease, we hope to develop an 
effective neuroprotective strategy to cure or delay the 
progression of this disease. We hope to find the cure here.
    On a personal note, I married my wife while we were both at 
Iowa State University, and my wife also works at Johns Hopkins 
University as a specialist in Parkinson's disease research. We 
have a U.S. citizen daughter who is about 4 year old, and we 
recently just bought a house in Ellicott City, Maryland. So we 
do plan to stay here long.
    I currently have an H-1B visa status, which will expire 
next year. Although I have filed my immigrant visa petition in 
May, 2006, and got approved last year, February, but I have not 
received my green card yet because of the severe backlog of the 
employment-based visa numbers, and I do not know now because of 
the situation how long I have to wait before I can become the 
permanent resident and also become the U.S. citizen.
    I would like to emphasize the three major obstacles that 
the immigration status poses on my situation as well as other 
people's.
    The first one is because of the unavailability of the green 
card, I am not available to apply for many Federal grants from 
National Institute of Sciences or from National Institute of 
Health or National Science Foundation and from other Federal 
agencies, although my research is very promising to identify 
the direct target to cure or delay the ALS.
    The second obstacle is because of the situation, not me, 
but some other people who share the similar background as me 
cannot work for the Federal agencies, such as FDA, NIH, or 
other Federal agencies, although they possess specialized skill 
that is very much needed for these agencies.
    The third obstacle, obviously, is the travel inconvenience. 
For example, last year, I had opportunity to go to London for 
international conference, which is very important in my field, 
but I could not go because if I go, I have to go back to China 
to re-apply for my H-1B stamp and then come back to Baltimore 
which will take months. So opportunity like this got wasted, 
and for my specific research, it is vital to have discussion to 
meet with colleagues to talk about the latest research 
progress, and that is also a problem to establish the long-term 
collaboration with your international colleagues.
    So, as I understand it, the whole point of the employment-
based immigration system is to keep the brightest, the best of 
the foreign minds, people in this land, in this land of 
opportunities. However, we cannot become the U.S. citizen 
before we got the green card, the permanent residence. Because 
of all these problems, we cannot travel freely, we cannot apply 
for some Federal grants, we cannot apply jobs for the Federal 
agencies, even though we are doing very cutting-edge researches 
and developing important technologies and which might create 
new job opportunities for the U.S.
    The Legal Immigrant Association I represent was formed by 
scientists, engineers, and other professionals in the United 
States. Most of us received advanced degrees from United States 
academic institutions, and most of us are also from China, and 
we are doing the petitioning to let the Government know and the 
Congress know what we need to let our voice be heard.
    So, on behalf of the LIA, I want to thank the Congress, the 
Subcommittee, for giving this opportunity, and I urge you to 
pass the legislation that would benefit eventually America by 
recognizing that putting highly skilled, highly educated people 
like us directly on the path to U.S. citizenship, and this will 
eventually benefit the best interests of the United States.
    Thank you.
    [The prepared statement of Mr. Yang follows:]
                   Prepared Statement of Yongjie Yang
    Madam Chairwoman, Congressman King, Members of the Committee. Good 
morning. I am honored and grateful to share my experiences with this 
panel, and I hope that these will highlight America's need to change 
the laws regarding high-skilled immigrants.
    My name is Yongjie Yang. I was born in China and have lived in the 
United States since 2000 when I entered the graduate program in 
neuroscience and genetics at Iowa State University. I was awarded a 
Ph.D. in 2005, the same year my wife got her Master's, also from Iowa 
State, which is known throughout the world as a leading institution in 
my field.
    I am now a research scientist at Johns Hopkins University in 
Baltimore. I investigate pathogenic mechanisms in neurodegenerative 
diseases. That is, I am helping to advance human knowledge about how 
certain kinds of diseases develop, including Alzheimer's , Parkinson's, 
and ALS, which is also known as Lou Gehrig's disease. Our lab is one of 
the leading labs in the research of Lou Gehrig's disease in the world. 
All of these cruel and often fatal diseases have certain 
characteristics in common. Scientists all over the world work on 
understanding these common characteristics, noting similarities and 
differences, seeking to find effective therapies.
    We all hope to find a cure.
    On a personal note, I married my wife while we were both at Iowa 
State University. She is also a specialist in neurodegenerative 
diseases. We have a US citizen daughter and just bought a house in 
Ellicott City, Maryland.
    I have H-1B status, which will expire next year. My immigrant visa 
petition was approved more than a year ago, in February 2007. That 
means that the U.S. government formally recognized that my skills are 
needed in this country--but there will not be an immigration visa 
available for me until at least 2009, if not much later. In fact, no 
one knows when I will finally be allowed to get on the path to US 
citizenship.
    I need to emphasize the unnecessary obstacles my immigration status 
poses for the kind of vital research that I do. Let me explain--
scientific research is collaborative. It thrives on free inquiry, 
debate and accountability. It doesn't matter whether the field is 
chemistry or physics or medical, like mine: we scientists need to work 
with and respond to each other's work to move forward. We need to talk 
and travel freely. And our work benefits humanity--we really can cure 
diseases now, provide effective therapies to relieve pain and 
suffering, in ways that weren't possible just a few years ago. And 
there is always something better, even more effective, just beyond the 
edge of our knowledge. We seek that.
    As I understand it, the whole point of the employment-based 
immigration system is to turn highly-skilled foreigners into Americans, 
to keep talent in the land of opportunity. To do that, the system needs 
to keep us here. We cannot become US citizens until we have been legal 
permanent residents. We cannot travel freely; we cannot take many 
government jobs or receive many Federal grants, without the green 
card--even though we are often doing very promising research or 
developing cutting edge technologies which can have significant 
economic job-creating potential. It's discouraging.
    Johns Hopkins wanted to pay for me to go to an international 
conference in London last year, the 8th European meeting to discuss 
glial cells in health and disease. These are a particular kind of cells 
in nervous systems vital to normal brain function. But in order to get 
the new visa that I would need to re-enter in H-1B status after 
traveling from Baltimore to Britain, on the way back I would have first 
had to travel to China and wait for my new visa to be issued. My work 
for a cutting edge American research facility regarding new discoveries 
in pathogenic mechanism's research would have sent me to Europe, but 
the visa process required that I re-enter from China. The paperwork 
alone would have taken so long, I didn't go.
    The Legal Immigrant Association was formed by scientists, engineers 
and other professionals in the United States. Most of Us are from 
China. We are learning how to be Americans. My story is not unique. One 
member of LIA is the database manager for clinical trials seeking a 
cure for cancer. He has also been approved for permanent residency--yet 
he still has only temporary permission to work in the US. Do we really 
want him to go back to China? He wants to stay here. Another member, in 
Texas, is an entrepreneur unable to raise money for a nano-technology 
business he would like to start, because even though he is eligible for 
a green card, there are none available. Do we want him to go back to 
China, to create those jobs there, when he wants to stay and create 
them here?
    LIA members with advanced degrees from American universities do 
cutting edge research in high-tech fields that can help cure diseases 
and solve problems, creating jobs for Americans in America--but the 
immigration system simply does not work in America's interest.
    We know this from the inside.
    On behalf of LIA, I want to thank the Subcommittee for inviting me 
to testify, and I urge you to pass legislation that can benefit America 
by recognizing that putting highly skilled, highly educated people like 
us directly on the path to US citizenship is in America's best 
interest.
    Thank you.

    Ms. Lofgren. Thank you very much, Dr. Yang.
    And we will end with Mr. Krikorian.

  STATEMENT OF MARK KRIKORIAN, EXECUTIVE DIRECTOR, CENTER FOR 
                      IMMIGRATION STUDIES

    Mr. Krikorian. Thank you, Madam Chairwoman, for the 
opportunity to be the skunk at the garden party.
    The public is assured that employment-based immigration 
categories in our law is Einstein immigration. Even many of 
those concerned about the harmful impacts of low-skilled 
immigration often take for granted that higher skilled workers 
are needed.
    But like everything else in immigration policy, skills-
based immigration is not what it seems. Once we peel away the 
misconceptions, we find that the highly skilled workers in 
question often really are not that highly skilled, and the need 
for them is really more an employer need for cheaper labor.
    First, a couple of numbers. Last year, 162,000 or so 
foreigners were granted legal permanent residence in the five 
employment-based categories. More than half of them were in the 
third category, EB-3, which is for skilled workers and 
professionals, though a majority of those were really for 
family members, and this is the category that is at the center 
of the discussion about the supposed need for high-skilled 
workers.
    Research shows that, contrary to the claims of lobbyists, 
these workers are not necessarily the best and brightest. Dr. 
Norman Matloff, professor of computer science at UC-Davis, has 
found that there is no premium paid to foreign workers in 
science, technology, engineering, and mathematics whose 
employers are petitioning for green cards. In a market economy, 
if these foreign workers were indeed the outstanding talents we 
are told they are, they would be paid accordingly with wages 
far above the prevailing wage, and they are not.
    What is more, Dr. Matloff has found that the large majority 
of these foreign workers are hired in the two lowest levels of 
ability, according to the Labor Department's classifications 
and thus unlikely to be contributing much to innovation. In 
fact, most of the large tech firms had only a handful of 
workers in the highest skill level category where the 
innovations are most likely to be found. As he summed up, ``the 
vast majority of the foreign workers, including those at most 
major tech firms, are people of just ordinary talent doing 
ordinary work. They are not the innovators the industry 
lobbyists portray them to be,''
    And we see a similar situation looking at H-1B visas that 
are the supposedly temporary visas that serve as a stepping 
stone to much of employment-based immigration, with software 
expert John Miano finding the overwhelming majority of them are 
not highly skilled for their occupations and are paid well 
below the median for comparable American workers.
    So what should our skills-based immigration program look 
like? The first thing to keep in mind is that in today's 
America ``skilled'' does not mean what it did a century ago in 
the Ellis Island era. Then a high school graduate anywhere in 
the United States was unusual and a college graduate was rare 
indeed.
    Today, with Americans having attained dramatically higher 
levels of education, any foreigner asking to be admitted based 
on exceptional skills would need to demonstrate even greater 
levels of accomplishment acquired abroad without subsidies from 
the American taxpayer, and every foreign student is subsidized 
to the tune of thousands of dollars by the taxpayer to justify 
admission.
    And another very important point is that the admission of 
large numbers of technical workers or other skilled workers 
would have a perverse long-term effect by decoupling American 
business from the fate of the American educational system, 
since companies could simply import their workers from abroad. 
Business is the country's single most important interest group, 
and if it is true that American students are not being 
adequately trained for the technical jobs of tomorrow, mass 
skilled immigration actually frees American firms from the need 
to pressure lawmakers and schools for whatever educational 
reforms might be needed to address the problem.
    For instance, if hospitals and other firms had easy access 
to foreign nurses, for instance, then the incentive to build 
those new nursing skills and the other things that Congressman 
Conyers referred to is simply not there or is dramatically 
reduced.
    There is really no reason any employer should be permitted 
to make an end-run around our flexible dynamic labor force of 
150 million people unless the prospective immigrant in question 
has unique, remarkable abilities. One way to do that would be 
simply to give green cards to anybody who scores 140 on an 
English language IQ test. It certainly would be preferable than 
this H-1B business that Dr. Yang rightly criticized.
    Another way to do that, maybe a more practical way, would 
be to use the current system but limit it to the genuinely best 
and brightest category, EB1-1 and EB1-2. Those are the aliens 
of extraordinary ability and outstanding professors and 
researchers.
    Congress, in fact, in the legislative history of the 
immigration law specifically said, ``that that visa is intended 
for the small percentage of individuals who have risen to the 
very top of their field of endeavor.''. That is Einstein 
immigration, if you will, and those are the only foreign 
citizens who should be granted special immigration rights based 
on their skills.
    Last year, we gave about 11,000 green cards to people in 
that category, including family members, and, you know, we 
could easily cap that at 15,000 or not have any cap at all if 
the standards were high enough because, after all, if we are 
talking about the immigration of geniuses, how many geniuses 
really are there in the world?
    Thank you.
    [The prepared statement of Mr. Krikorian follows:]
                  Prepared Statement of Mark Krikorian
    ``Einstein immigration.''
    This is what Americans imagine our employment-based immigration 
categories to be. Even many of those concerned about the harmful 
impacts of low-skilled immigration into a modern society still often 
take for granted that higher-skilled workers are beneficial--hence the 
title of this oversight hearing, ``The Need for Green Cards for Highly 
Skilled Workers.''
    But like everything else in immigration policy, skills- and 
employment-based immigration is not what it seems. Once we peel away 
the misconceptions, we find that the ``highly skilled'' workers in 
question aren't really that highly skilled, and the ``need'' for them 
has little to do with the national interest and much to do with firms 
seeking cheaper and more compliant workers. In fact, the employment-
based immigration category with the highest standards, the category 
that really does select for the best and brightest around the world, is 
never fully used, precisely because there are so few people in the 
world who have such extraordinary abilities.
    First a few numbers. In FY 2007, 162,176 foreigners were granted 
legal permanent residence in the United States in the five employment-
based categories. More than half of these--85,030--are in the third 
employment-based category, or EB-3, for skilled workers, professionals, 
and others, though a majority (48,275) of those green cards are 
actually for the spouses and children of such workers. It's this 
category that is at the center of the discussion about the ``need'' for 
``highly skilled'' workers.
    Research shows that, contrary to the claims of tech-industry 
lobbyists, these workers are not the best and brightest, the cream of 
the crop, the global elite of talent. Dr. Norman Matloff, a professor 
of computer science at the University of California, Davis, recently 
calculated the premium paid to foreign workers in science, technology, 
engineering, and mathematics whose employers are petitioning for green 
cards. He did this by computing the ratio of their salaries to the 
prevailing wage for that occupation. In a market economy, if these 
foreign workers were indeed outstanding talents they would be paid 
accordingly, with wages far above the prevailing wage.
    They're not. In his report (``H-1Bs: Still Not the Best and the 
Brightest,'' May 2008, http://www.cis.org/articles/2008/back508.html), 
Dr. Matloff called the ratio the ``Talent Measure''--the higher the 
number, the greater the premium employers were paying for the worker's 
talents compared to the wage paid to other workers in the same field 
with comparable experience. Dr. Matloff found that the Talent Measure 
was at or near 1.0 for virtually all the professions and tech firms he 
studied--i.e., they are average workers in their fields. (By 
definition, the ratio cannot be lower than 1.0, since employers are 
barred law from paying below the prevailing wage.) He concluded that 
``the vast majority of the foreign workers--including those at most 
major tech firms--are people of just ordinary talent, doing ordinary 
work. They are not the innovators the industry lobbyists portray them 
to be.''
    What's more, Dr. Matloff found that the large majority of these 
foreign workers are hired at the two lowest levels of ability, 
according to the Labor Department's classification, and thus unlikely 
to be contributing much to innovation. In fact, most of the large tech 
firms had virtually no workers in the highest skill level, where 
innovators are most likely to be found, despite the fact that it is 
these very firms which argue that innovation depends on their ability 
to import foreign workers.
    And looking at H-1B visas, the ``temporary'' visas that serve as a 
stepping-stone to employment-based immigration, paints the same 
picture. Software expert John Miano has looked at the employer 
applications for H-1B workers, and found that the overwhelming majority 
are not highly skilled for their occupations and are paid well below 
the median for comparable American workers. And he concluded in ``Low 
Salaries for Low Skills: Wages and Skill Levels for H-1B Computer 
Workers,'' April 2007, http://www.cis.org/articles/2007/back407.html:

        The newly available data on skills suggest one of two things is 
        happening, neither of which is consistent with the claims of 
        employers pushing for the expansion of the program. Either the 
        H-1B program is used primarily to import relatively less-
        skilled, entry-level, or trainee workers (and thus is of 
        dubious value to the American economy), or employers are lying 
        about these workers' skills in order to suppress their wages.

    In other words, unless tech companies are engaged in a massive 
conspiracy to lie to the government, the current skilled immigration 
flow is not made up mainly of Einsteins, but rather ordinary workers 
for their fields.
    So what should our skills-based immigration program look like? The 
first thing to keep in mind is that in today's America ``skilled'' 
doesn't mean what it did a century ago. Then, a high-school graduate 
was unusual, and a college graduate was rare indeed; in 1910, only 13 
percent of American adults had graduated high school and fully one-
quarter had no more than five years of schooling. At the same time, 
only 2.7 percent of Americans had college degrees. Today, with 
Americans having attainted dramatically higher levels of education, any 
foreigner asking to be admitted based on high skills would need to 
demonstrate even greater levels of accomplishment--acquired abroad, 
without subsidy from the American taxpayer--to justify admission.
    Also, the admission of large numbers of technical workers would 
have a perverse long-term effect--it would decouple American business 
from the American educational system, since companies could simply 
import workers from abroad. Business is the single most important 
lobbying group at the federal, state, and local level, and if it's true 
that American students are not being adequately trained for the 
technical jobs of tomorrow, mass skilled immigration frees American 
firms from the need to pressure lawmakers and schools for whatever 
educational reforms might be needed to address this problem.
    Thus there's no reason any employer should be permitted to make an 
end run around our vast continental labor force of more than 150 
million people unless the prospective immigrant in question has unique, 
remarkable abilities, and would make an enormous contribution to the 
productive capacity of the nation.
    Perhaps the simplest way to approach this would be to admit anyone 
who scores above 140 on an English-language IQ test. A more likely 
approach would be to keep part of the current system, but limit skilled 
immigration to a portion of the first employment-based category (EB-
1)--specifically, ``aliens of extraordinary ability'' and outstanding 
professors and researchers. Congress intended this to be the real 
cream-of-the-crop category, intended ``for the small percentage of 
individuals who have risen to the very top of their field of 
endeavor.''
    (The EB-1 category also gives green cards to multinational 
executives or managers, people who are not necessarily, as anyone who 
reads the business pages knows, the best and the brightest.)
    These two groups--``aliens of extraordinary ability'' and 
outstanding professors and researchers - accounted for about 11,000 
green cards last year (including spouses and children). This is the 
real Einstein immigration, and these are the only foreigners who should 
be granted permanent residence based on skills or employment. We could 
do without a numerical cap altogether, so long as standards for 
admission are set sufficiently high, but to prevent ``bracket creep,'' 
as it were, it might be best to cap such immigration at 15,000 per 
year. After all, how many geniuses are there in the world?

    Ms. Lofgren. Thank you, Mr. Krikorian.
    And thank you to all of the witnesses.
    Now is the time when Members of the Committee can pose 
questions to our witnesses, and I will begin.
    First, let me thank all of you for this testimony. I am 
mindful that Mr. King mentioned that we have smart people who 
are here from Iowa, we have smart people here from Santa Clara 
County, and I am interested in exploring the role that highly 
educated individuals in the STEM field play in job development 
here in the United States.
    I talked to Mr. Lungren on the floor and he had a conflict 
because he thought we would be here just in the morning--hoping 
that I would explore the situation of Microsoft opening up a 
new research center in Vancouver and the whole issue of whether 
the individuals we are talking about, really Ph.D. and master 
levels, create new jobs as sort of team leaders and innovators 
or not.
    Can anyone address that? Maybe Mr. Sweeney. I mean, you 
have experience--substantial experience--in the technology 
industry.
    Mr. Sweeney. I think that is a particularly important 
point. In the semiconductor industry where we have about 80,000 
U.S. engineers, we apply for green cards for typically up to 
4,000 per year, 5 percent of our population. These people, 
although small in number, are crucial to manufacturing process 
research.
    These individuals create jobs by coming up with the next 
innovations of semiconductor technologies for products going 
into everything from cell phones, your Blackberry, to medical 
instrumentation, automotive instrumentation. In fact, it is 
well documented that semiconductor engineers' productivity 
gains for the United States was one of the greatest factors 
over the last decade.
    Most of these scientists that we hire, these master's and 
Ph.D. scientists that we hire, are not the cheap labor that my 
colleague referred to just a few minutes ago. These are 
master's and Ph.D. students coming out of the best universities 
in the U.S. They are making north of $100,000 per year, and 
these are job-creating scientists.
    I will give you one particular example of a scientist that 
we had in our Texas factory. He was an Indian national with a 
master's degree from the University of Texas-Arlington. He had 
been waiting for his green card for a period of about 6 years, 
and, of course, during that period, he is not permitted to be 
promoted or transferred.
    Most recently, we had a need in a research center, a 
corporate research center, in Santa Clara to work on some new 
manufacturing processes that would create jobs in our factories 
in Maine and Texas. That individual selflessly gave up his 
place in the green card in the queue to come and work at our 
corporate headquarters, knowing that he would have to restart 
his whole permanent residency application.
    But he was so important to our company that we endorsed 
that and we supported him because he is going to create more 
jobs for us in our factories.
    Ms. Lofgren. Mr. Colby, I wonder if I could ask you. As you 
pointed out, the IEEE and SIA have not always agreed, but you 
have come to an agreement on this. Can you tell me what brought 
you to this point?
    Mr. Colby. I think that what brings us to this point is 
that we do need top talent from overseas. At this point, it is 
difficult to get enough engineers in the United States at this 
point to satisfactorily staff our R&D labs. It is somewhat 
pitiful that that is the case, but that is the way it has 
fallen out, and that is the reason that a lot of these 
companies, including my own when I was involved with the 
startup, we just could not get people come in the door for a 
good salary, again over $100K--this was in 2001--and it is just 
difficult to get people to be thinking along the lines of being 
an engineer or something like that in the United States.
    In my school, when I work in the volunteer school, the 
children will come up to me and say, ``Why would you want to be 
an engineer?'' and I do not really understand what has happened 
in the United States, but somehow we have to correct that. In 
this interim period, we definitely need talent from overseas so 
we can correct this situation.
    Ms. Lofgren. Can I ask maybe Mr. Pearson? You are at 
Stanford, my alma mater. Certainly, I know the Bechtel Center 
well. I really felt that if you have someone like Dr. Yang who 
is maybe going to find a cure to Alzheimer's--I hope so--it is 
not an alternative. You want to educate more American students, 
but you also do not want to send Dr. Yang someplace else. You 
know, we want to invent the stuff here. Do you see those in 
conflict, that if we could educate more American students, then 
you would want to send Dr. Yang home?
    Mr. Pearson. No, I do not. I do not see that in conflict. 
If you would look at the data, I think it has been from the 
late 1970's that about 40 percent of all master's and doctoral 
students in the STEM fields have been from overseas. I think 
you can do both. Graduate programs at Stanford and at many 
institutions--Iowa State I do not think would be any 
exception--tend to invite people to those programs who they 
consider are the best, and if they are from Napa Valley or 
China, I actually do not think they look at that.
    We have had at Stanford in the last few years a number of 
people like Dr. Yang who have had similar struggles in waiting 
for green cards. We did a few years ago lose one person who 
moved back to Europe because of that. The others did work out 
but after many years of frustration and consultation with 
immigration attorneys.
    Higher education also made the claim a number of years ago 
with the H-1 changes when we were not charged the training fee 
that, in fact, universities are trainers of young talent, and I 
would suspect that Dr. Yang would be a classic example of 
somebody from overseas who would not only contribute to better 
understanding with diseases, but would also be a good teacher 
and a good educator.
    Ms. Lofgren. Thank you.
    I can see that my time has expired.
    So I am going to turn to Mr. Gutierrez for whatever 
questions that he may have.
    Mr. Gutierrez. Thank you. Thank you, Chairwoman.
    Fifty-one percent of the master's degree students are 
foreign nationals; 71 percent of Ph.D.s, electrical engineers. 
They are called urgent and critical and important to the 
industry, and I just have a comment on the testimony.
    One could come away from this hearing and decide that if 
you are educated and you have a master's degree, you are 
welcome and the Congress will act to bring you and your family 
together and give you permanent residency, and if you want to 
remain here after you get your Ph.D. and your doctorate's 
degree, then stay. There is a way for you.
    If you are a farm worker who comes here under our current 
system, the H-2A program, then you come only temporarily 
without family, with the only expectation that after a few 
years to return to your home and never stay in the United 
States of America.
    I think that is part of the dilemma that I have with all of 
this, is should the Congress be acting for those who have 
Ph.D.s and master's degrees who come here on student visas to 
our country to become educated, to have their master's and 
probably have a relatively good future somewhere else, but who 
I would love to have them stay here.
    For the record, I think we should fix the system. I think 
we should give the high-tech industry the innovators that they 
need and that they should be able to remain here. My point is 
not that, not that I am against you. I am for you.
    Expand on it then to say how do we do that at the same time 
we have farm workers in pesticide-ridden fields earning low 
wages and say to them, ``You are not really smart. You are not 
really very educated,'' but who I could state are just as 
critical and relevant to the innovation of that industry as the 
Ph.D. and master degree students are to the high-tech industry.
    So, yes, let's work on this, but I think let's work on it 
on a holistic approach so that we can truly be proud from a 
historical point of view about what we do to reform our 
immigration system so that the most vulnerable among us, the 
most vulnerable immigrant among us, is not somehow stigmatized 
by actions of the Congress to say, ``These will go forward.''
    I think there are people who are going to be against 
increasing because they do not care what kind of immigrant it 
is. You know, one immigrant is one immigrant too many in this 
country. And so we are going to have to deal with that, but I 
think the vast majority of the American people understand that 
immigration is good for our country, that we need the high-tech 
industry, that we need people in all kinds of industry where 
maybe there are not the relevant workers and the relevant 
skills as we work as Americans to create those opportunities 
for our own children.
    So I guess that is just my basic point. If someone would 
like to comment, I would be happy to yield the time to any one 
of the participants.
    Mr. Sweeney. Congressman Gutierrez, thank you for your 
comments.
    I would say that the Semiconductor Industry Association has 
been supportive generally of an overhaul of our entire 
immigration process because we see many flaws, but I would also 
say that our industry association is dealing with the day-to-
day criticalities of the loss of job-creating talent in our 
country.
    Every day that passes, we see more and more people who have 
been waiting in a permanent residency queue leaving our shores 
to go back to their own location where they are creating jobs 
to compete against us. This is just a travesty after we have 
invested so much effort in theses scientists, these highly 
talented individuals in our country.
    I would say that one of the other things the semiconductor 
industry feels is that despite the need for a comprehensive 
view of this, we feel that there is an urgent requirement to 
address this high-skilled immigration problem immediately. I 
will say, however----
    Mr. Gutierrez. That clock is on yellow.
    I agree with you. I want to address it. Try to put what you 
just said in the context of someone who is an American citizen, 
and there are millions of American citizen children whose 
parents are on the threat of deportation today, whose parents 
have already been deported and have been separated from them.
    Put yourself in a meat-packing plant in Pottsville, Iowa, 
where you have been indicted for working with false 
documentation, basically working undocumented, and the 
prosecutor asks for a 5-year sentence. When you put that in 
juxtaposition to your critical area, that is--I am just trying 
to stress to you, you know, we are all in this together. I want 
to help, but the most--how would I say it--vulnerable among us 
must be responded to, I think, if we are going to be of justice 
and of fairness.
    I thank you, Mr. Sweeney, and I hope to work with you and 
all of you.
    Ms. Lofgren. Thank you, Mr. Gutierrez.
    I now turn to Mr. King for his 5 minutes of questions.
    Mr. King. Thank you, Madam Chair.
    I want to thank all the witnesses.
    Just with regard to the Pottsville, Iowa, raids, there were 
383 that were arrested for document fraud, and 300 pled guilty. 
They received 5-month sentences and 3 years of supervisory 
release. There were 83 that were released for humanitarian 
reasons because they had dependent children or one reason or 
another. So I do not accept the idea that ICE is insensitive to 
families and their needs.
    I think, though, that what we are dealing with here is that 
we want bright people to come into the United States legally, 
and I have for a long time said my mantra on immigration has 
been and will remain we need to craft an immigration policy 
that is designed to enhance the economic, the cultural, and the 
social wellbeing of the United States of America. Call it 
selfish, if you will, but any nation would set that kind of a 
policy.
    And so when we get to the point of what type of people does 
this country need, we are not in great disagreement, myself and 
Madam Chair from California, on the merit of highly skilled 
immigrations. But where I draw a line in a disagreement is that 
I do not believe we can have unlimited immigration. I do not 
think we can have unlimited immigration in any of our 
categories. I think a smart nation will set that policy and set 
a cap, an overall cap, and a cap in each of the visa 
categories.
    At this point, I am not going to call it a partisan 
position because we have people on both sides of all these 
issues across the aisle, but it is predominantly over on my 
side of the aisle that there has to be an overall limit and a 
hard cap.
    Now we legally brought in about 1.3 million last year, and 
I continually hear the complaints that the lines are long. That 
is because this is a good place to come, and we can have short 
lines if we broaden them out and bring more people in. If we 
would bring them in as fast as they had applied, we would not 
have any lines. We have them because there are more people that 
want to come to the United States than we actually process and 
get here under the laws that we have today.
    So my view is this, that between 89 and 93 percent of the 
legal immigration in the United States is not based upon merit. 
It is based upon familial, family reunification policies, and 
so if we are only in real control of merit of 7 to 11 percent 
of our legal immigration, that is not much control to try to 
build a brain trust in the United States.
    I appreciate especially it has to be Dr. Yang, if I read 
the memo correctly, instead of Mr. Yang, and the education that 
you received in the path that you are following. I have another 
concern, and that is if we continue to educate in the United 
States bright people and send them out of America, at some 
point, they have created the universities in the other 
countries and taken our brain trust and exported it. They will 
not need us to educate their young people anymore, they will be 
educating them there, and they will have surpassed our brain 
trust here.
    So I am interested in keeping the brains here. I appreciate 
Mr. Krikorian's testimony, though, because I think it lends a 
balance to this. And we left you out of the brain trust 
compliments of the other four witnesses, so I want to add they 
come from other places as well, bright people, Mr. Krikorian.
    So I think I will go first to Mr. Krikorian. The statement 
that you made that the wages are at 1.0, which is the statutory 
wage applied for those skills, if there is not deviation from 
that, then statistically the exceptions would simply be 
anomalies then, and I would like to ask you to expand upon that 
a little bit. If 1.0 is the pay scale, that is what the law 
says, you cannot pay less. If you pay more, that would be an 
indicator of highly skilled. The study says no.
    Mr. Krikorian. Yes. I mean, it would essentially be the 
premium above the prevailing wage that is being paid, and so it 
cannot be any less, and it is essentially, you know, a slight 
amount more. There are variations. The report on our Web site 
is variations between firms and industries, but, basically, for 
most firms, most industries, it is only the slightest bit above 
the floor, basically.
    You know, a premium, as far as I would understand it, would 
be a significantly higher wage. I mean, I am just picking 20 
percent out of the air, but something like that or more would 
be the kind of thing that you would pay to somebody who was an 
outstanding talent that you were attempting to draw in and pay, 
you know, accordingly.
    Mr. King. Let me also say also that I have had the 
privilege of seatmates flying back and forth of some of the 
young immigrant doctors that are doing research work for us, 
being paid about $50,000 a year and, it occurs to me, trapped 
in a green card or in a non-green card avenue, you are not in a 
position to negotiate for a higher wage.
    The longer we can drag out your slow walk toward 
citizenship, Dr. Yang, the less we would be paying you for the 
work you are doing. Would that be a fair analysis?
    Mr. Yang. Well----
    Mr. King. I am not saying that is the right thing. I just 
simply ask if it is the real thing.
    Mr. Yang. You mean people like me get a lower payment?
    Mr. King. Yes.
    Mr. Yang. Well, I think that is probably not the truth. My 
own case is, for example, my salary probably is the highest in 
our department because the salary basically goes by your merit, 
like your excellence. If you are good at it, then basically 
your department will like to pay more to keep you there to 
conduct the nice research.
    Of course, it is relevant to how much money you can bring 
into the department, how many grants you can get for the 
department. So there are a lot of practical issues, too, but, 
basically, I think in my own case is that being the highest 
payment, not the lowest payment, I think.
    Mr. King. Just as a follow up on that, Dr. Yang, but where 
you are doing research now, if you got a better offer from, 
say, Stanford, are you free to travel and take that job? Are 
you limited?
    Mr. Yang. No, I am somewhat limited. For example, I have to 
get letter Stanford to apply for a new H-1 for me, and after I 
receive that H-1, then I can transfer from Johns Hopkins to 
Stanford. But before I get that, I cannot really move to 
anywhere else.
    Mr. King. Okay. Then just to conclude that point, say if 
Mr. Krikorian were doing research right next to you and he is 
an American citizen and you are not, if he gets the call from 
Stanford and you are of equal skills, then isn't it a lot 
easier for Mr. Krikorian to negotiate for a higher salary and 
show up the next day and go to work for Stanford?
    Mr. Yang. Well----
    Mr. King. You are worth more if you can travel. That is my 
point.
    Mr. Yang. Right. Well, I think the point is basically for 
the employer to consider his skills. If, for example, Mr. 
Krikorian has the same skill as what I have, then probably go 
to him because he is a U.S. citizen, I think, but if I have a 
better skill, especially some special skills that I possess, 
but he does not, probably the employer will prefer me rather 
than him, I think.
    In the scientific field, it is not purely 100 percent, but 
majority will base on the skill or your background, your 
expertise, not by, you know, who you are which comes----
    Mr. King. The red light indicates you are still a Cyclone 
fan. I yield back to the Chair.
    Mr. Yang. Yes, I am.
    Ms. Lofgren. Thank you, Mr. King.
    And I will just--we do have another panel--thank you for 
your testimony today.
    I would just note that, you know, sometimes I think there 
is a false distinction made. Well, maybe that is an 
overstatement, but I look at Silicon Valley, and Jerry Yang 
grew up in East San Jose, but he was not admitted because of 
his Ph.D., because of his mind. He came as a child. Sergey Brin 
who founded Google--he was not admitted because of his 
education. He was admitted as a child. His parents were 
professors. Andy Grove, I mean, founded Intel. He was not 
admitted because of his education. He was a refugee.
    So, you know, you never know where the talent is going to 
come. Certainly, somebody like you, Dr. Yang, we want to keep, 
and I am hopeful that we can move forward on some of these 
measures, the Lofgren-Sensenbrenner bill would recapture the 
visas that were meant to have been issued, the Lofgren-
Goodlatte bill would eliminate the per-country limits on the 
employment side, and the Lofgren-Cannon bill which would 
address the STEM issue that we have talked about today.
    I hope that we can move forward in a collegial and 
hopefully bipartisan way to do some variation of those bills in 
this Congress, and I know Mr. Gutierrez had another commitment, 
but he is absolutely right. We have to do something about the 
other elements of our flawed immigration system. What is 
happening, in my judgment, to individuals--I mean, when we have 
our salad, we have to thank the people who are and really 
living in a state of fear today--is not acceptable and has to 
be changed.
    With that, I will thank you all and invite the next panel 
to come forward.
    We have our second panel, and I will introduce them as they 
are coming forward so we are not interrupted by our votes.
    I am pleased to welcome Dr. Jana Stonestreet. Dr. 
Stonestreet has been a registered nurse for 32 years and a 
nursing executive for over 17 years exclusively with an acute 
care hospital. She has worked as a health system chief nurse at 
the University of Texas Medical Branch at Galveston, Methodist 
Health Care System in San Antonio, and she is currently chief 
nursing executive for the Baptist Health System in San Antonio, 
Texas.
    Dr. Stonestreet received a bachelor's degree in nursing 
from Kent Street University, a master's degree in nursing from 
the University of Texas, and her Ph.D. in nursing from Texas 
Women's University. She has been certified in critical care 
nursing and administration. She has published articles on the 
subjects of leadership, strategic planning, and retention of 
staff nurses and nurse managers.
    Next, I would like to introduce Cheryl Peterson. Ms. 
Peterson is a senior policy fellow in the department of nursing 
practice and policy at the American Nurses Association. She is 
responsible for policy development on issues relating to the 
nursing workforce and nursing workforce planning for the 
future.
    Since coming to the ANA in 1990, Ms. Peterson has developed 
expertise in several areas, including issues related to labor, 
employment, trade and immigration, and policy development on 
the supply of and demand for nursing services. She has a 
bachelor's of science in nursing from the University of 
Cincinnati and a master's of science degree in nursing from 
Georgetown University.
    And, finally, I would like to introduce Steve Francy, who 
is the executive director of RNs Working Together. RNs Working 
Together is a coalition of 10 AFL-CIO unions representing over 
200,000 registered nurses and is America's largest organization 
of working registered nurses. Mr. Francy received his BS and 
his MS in political economy from the Colorado State University 
and his juris doctorate from the University of Denver.
    As with our first panel, your complete written statements 
will be made part of our official record. We would ask that 
your oral testimony take about 5 minutes, and when the red 
light is on, it means your time is up.
    So if we can go to you first, Ms. Stonestreet.

TESTIMONY OF JANA STONESTREET, CHIEF NURSING EXECUTIVE, BAPTIST 
                         HEALTH SYSTEM

    Ms. Stonestreet. Thank you very much.
    Madam Chair Lofgren and Committee Members, I thank you for 
the opportunity to appear today to discuss the nursing 
shortage, particularly as it relates to green cards and the 
recruitment of foreign-educated nurses.
    My name is Jana Stonestreet. I am chief nursing executive 
for the Baptist Health Care System in San Antonio, Texas. 
Baptist is the leading provider of health care in San Antonio 
and South Texas, and I welcome the opportunity really to tell 
you our story.
    Our hospital has more than 1,700 licensed beds and serves 
patients through five facilities, six emergency departments, 
and outpatient services. We also operate a school of health 
professions with a history of educating nurses and allied 
health professionals for more than 100 years.
    As chief nursing executive for Baptist, I have 
responsibility for providing quality nursing care to all of the 
patients who come to us. This requires the recruitment and 
retention of an adequate number of qualified nurses.
    Currently, our hospitals have 236 unfilled RN positions. We 
anticipate needing 136 more RNs in the next 12 months. This 
vacancy rate exists in spite of a 6.1 percent improvement in 
our nurse turnover for a rate of just under 20 percent for our 
nursing turnover.
    The inability to fill RN positions has an adverse effect on 
our ability to care for patients, and it prevents us from 
expanding needed services to our community. It also forces our 
hospitals to divert EMS and at times cancel elective 
procedures.
    The nursing shortage is at a critical level and is expected 
to get worse. The U.S. Department of Labor says that 1.2 
million new and replacement nurses will be needed by 2016. The 
Department of Health and Human Services expects the national 
nursing shortage to grow to more than one million nurses by 
2020.
    The causes of the nursing shortage are complex. They 
include a shortage of nurse educators, including lack of 
clinical sites and classrooms for educating our nurses, an 
aging workforce, and an increased demand for RNs both inside 
and outside of the hospital setting.
    Baptist's overall strategy is to keep all RN pipelines 
flowing to our hospitals. We have a school of nursing that has 
graduated over 3,300 RNs since its inception in 1903, and since 
2004, we have been able to triple our graduates to 126 in 2007.
    The recruitment strategies we use run the spectrum of those 
reported in the literature and reported as best practices, 
including job fairs, direct mailings, community events, and 
continuing education programs for our nurses. We have developed 
and maintained a reputation for excellence in nursing practice, 
which is vital to recruitment.
    The development of a positive work environment through 
implementation of shared governance enables staff nurses to 
truly share in decision making related to professional practice 
in the work environment. Our own staff have become our best 
recruiters.
    To help us fill our patient needs, Baptist has recruited 
well-qualified foreign-educated nurses. Two-and-a-half years 
ago, we interviewed and selected 88 qualified nurses from the 
Philippines. Most have met the requirements for admission to 
the United States, including passage of the licensing exam and 
visa screen. A lack of green cards has resulted in at least a 
1-year additional delay for 80 of these nurses who otherwise 
could be available to our patients today. But even with these 
80 nurses, our hospitals would still have 150 vacancies.
    Foreign graduates account for about 15 percent of new 
nurses that are licensed to practice in the United States each 
year. Any interruption of their availability has an immediate 
and detrimental effect on health care, making an already 
difficult situation worse. I understand that foreign nurses 
face delays of more than 2 years in gaining entry into this 
country.
    As of July 1, their waiting time will grow even longer 
because no green cards will be available. Over the past 3 
years, the delay has reached as high as 5 years. Without 
congressional action, this situation will only get worse.
    Although significant nurse recruitment initiatives have 
been adopted at the local, regional, State, and national 
levels, they cannot overcome a shortage of this magnitude. 
America's hospitals must be able to take advantage of all 
available options to meet this critical need.
    When local solutions fail to address the workforce 
challenges, hospitals must be able to have the option to 
recruit qualified foreign nurses to provide care to our 
patients. On this point, legislation recently introduced by 
Representative Robert Wexler, H.R. 5924, the Emergency Nurse 
Supply Relief Act, will help us address our immediate need for 
nurses. The bill would set aside 20,000 green cards per year 
for highly qualified foreign-educated nurses for 3 years. It 
would also help bolster our domestic supply by establishing a 
program to help U.S. nursing education programs.
    Immigration is not the permanent solution to our nursing 
shortage, increased domestic supply is, but dramatically 
increasing our domestic training and retention takes time, and 
our patients need nurses now. So we must keep a reasonable 
supply of qualified immigrant nurses in the meantime.
    As a person who has spent my entire professional life 
caring for patients, much of it in roles responsible for 
staffing, my goal has always been to give our patients the very 
best possible care, but we cannot accomplish that goal without 
nurses. Please help us meet our patients' needs and that of our 
communities by passing H.R. 5924.
    Thank you.
    [The prepared statement of Ms. Stonestreet follows:]
                 Prepared Statement of Jana Stonestreet
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you, Dr. Stonestreet.
    Ms. Peterson?

STATEMENT OF CHERYL A. PETERSON, SENIOR POLICY FELLOW, AMERICAN 
                       NURSES ASSOCIATION

    Ms. Peterson. Good afternoon, Madam Chair and Members of 
the Subcommittee.
    I am Cheryl Peterson, a registered nurse and senior policy 
fellow at the American Nurses Association.
    ANA appreciates the opportunity to testify on behalf of the 
global profession of nursing and the Nation's 2.9 million 
registered nurses. ANA is also the U.S. member of the 
International Council of Nurses. ICN and its 128 member 
countries work together to ensure quality nursing care for all 
and the presence worldwide of a respected nursing profession 
and a competent and satisfied nursing workforce.
    I have been a registered nurse for 28 years. During my 13 
years in health care policy development, I have witnessed many 
attempts to address domestic nursing workforce problems through 
immigration. ANA's position on this issue has not wavered. ANA 
supports the mobility of individual nurses. However, we oppose 
the use of immigration to solve America's nursing workforce 
shortages.
    It is inappropriate to look overseas for nursing workforce 
relief when the real problem is the fact that Congress does not 
provide sufficient funding for schools of nursing, the health 
care industry has failed to maintain a work environment that 
retains experienced nurses, and the Government has not engaged 
in active planning to build a sustainable health workforce. The 
recruitment of educated nurses from developing countries 
deprives their home countries of highly skilled health care 
practitioners upon whose knowledge and talent their citizens 
heavily rely.
    We are now almost 10 years into another critical nursing 
shortage that is impacting all aspects of health care delivery. 
Yet, in 2007, baccalaureate nursing programs turned away over 
36,000 qualified applicants, and in 2005-2006, over 88,000 
qualified applicants were turned away from all types of basic 
nursing education programs.
    Retention of the current nursing workforce also continues 
to be problematic. Consistently high turnover rates and 
dissatisfaction with the current work environment complicate 
efforts to address the nursing shortage. A study reported in 
the Journal of Nursing Administration showed that 43 percent of 
experienced nurses score abnormally high on indicators of job 
burnout. A 2007 PricewaterhouseCooper's study reported that 27 
percent of new nursing graduates leave their first job within a 
year.
    ANA conducted an online survey on working conditions, 
attracting more than 10,000 respondents. Fifty percent of the 
respondents are considering leaving their current job, and a 
quarter are considering leaving the profession altogether. More 
than 50 percent stated that they believe that the quality of 
nursing care on their unit had declined over the last year and 
that more than 48 percent would not feel confident having a 
loved one receive care where they work.
    It is disheartening to be here contemplating large-scale 
nurse immigration yet again when we have failed to implement 
longstanding recommendations to address the shortage. In 
addition, there are serious ethical questions about recruiting 
nurses from other countries when there is a worldwide shortage 
of nurses.
    According to the Leonard Davis Institute of Health 
Economics, from 1990 top 2000, nurse recruitment shifted toward 
low-income countries and those with a low supply of nurses. The 
very real problem caused by mass immigration of nurses out of 
developing countries prompted the World Health Organization to 
adopt a resolution urging member states to address the negative 
impact of migration on health systems.
    Similarly, the ICN stated that it condemns the practice of 
recruiting nurses to countries where authorities have failed to 
implement sound human resource planning and to seriously 
address problems which cause nurses to leave the profession and 
discourage them from returning to nursing.
    The time has come to invest in long-term solutions. I urge 
you to fully fund domestic nursing education. Due to lack of 
funding, last year, the Federal Government was forced to turn 
away more than 93 percent of applicants to a loan repayment 
program and more than 96 percent of the applicants to a 
scholarship program. ANA also urges you to support the Nurse 
Education, Expansion, and Development Act. This legislation 
would provide flexible funding to schools of nursing to help 
them increase their capacity to educate new nurses.
    Finally, we challenge our partners in the health services 
community to work with us to improve nurse retention. This 
shortage will not be truly resolved until the work environment 
supports experienced nurses.
    In the end, ANA is concerned that the influx of foreign-
educated nurses only serves to further delay debate and action 
on serious nursing education and workplace issues. We look 
forward to working with you and our industry partners to create 
an environment conducive to high-quality nursing care. ANA 
appreciates the Subcommittee's discussions on this issue, and 
we plan to continue to work with you to seek a solution that 
meets the needs of America's citizens, nurses, and our global 
colleagues.
    Thank you.
    [The prepared statement of Ms. Peterson follows:]
                Prepared Statement of Cheryl A. Peterson
    Good morning Madam Chair and Members of the Subcommittee, I am 
Cheryl Peterson, MSN, RN, Senior Policy Fellow at the American Nurses 
Association. I am pleased to be here today representing the American 
Nurses Association (ANA) in recognition of your efforts to address the 
employment-based immigration system for highly-skilled professionals 
including registered nurses (RNs). ANA is the only full-service 
association representing the interest of the nation's RNs through its 
54 constituent member nurse associations.
    I have been a registered nurse for 28 years. During my 13 years of 
work in health care policy, I have been witness to many attempts to 
address domestic nursing workforce problems through immigration. ANA's 
position on this issue has not wavered. ANA supports the ability of 
individual nurses to choose to practice in the location of their 
choice. However, we oppose the use of immigration to solve America's 
nursing workforce shortages.
    ANA maintains that it is inappropriate to look overseas for nursing 
workforce relief when the real problem is the fact that Congress does 
not provide sufficient funding for domestic schools of nursing, the 
U.S. health care industry has failed to maintain a work environment 
that retains experienced U.S. nurses in patient care, and the U.S. 
government does not engage in active health workforce planning to build 
a sustainable nursing and health professions workforce for the future. 
Over-reliance on foreign-educated nurses by the health care industry 
serves only to postpone efforts to address the needs of nursing 
students and the U.S. nursing workforce. In addition, there are serious 
ethical questions about recruiting nurses from other countries when 
there is a world-wide shortage of nurses. The recruitment of educated 
nurses from developing nations deprives their home countries of highly-
skilled health care practitioners upon whose knowledge and talents 
their citizens heavily rely.
                       domestic nurse recruitment
    As this Subcommittee is aware, we are now almost ten years into a 
critical nursing shortage that is impacting all aspects of healthcare 
delivery. With an estimated 2.9 million RNs, the profession is the 
largest workforce component of our healthcare system. Nurses provide 
care in virtually all locations in which health services are delivered. 
Thus, the worsening shortage poses a serious challenge to the domestic 
healthcare system.
    While this shortage is alarming, it is heartening that many 
Americans are interested in pursuing nursing as a career. The American 
Association of Colleges of Nursing reports that enrollment in entry-
level baccalaureate nursing programs increased by 5.4 percent from 2006 
to 2007. The National League for Nursing's 2005-2006 survey of all pre-
licensure nursing education programs (associate degree, baccalaureate 
degree, and diploma programs) documented a 5 percent rise in admissions 
across all RN programs. More good news is that once students enroll in 
nursing programs, they tend to remain there and graduate to enter the 
workforce. Overall graduation rates grew by 8.5 percent during 2005-06; 
at the same time, nine out of every 10 bachelor's nursing degree 
candidates enrolled in 2005 remained enrolled or completed her/his 
nursing degree by 2006, compared with a retention rate of 72 percent at 
four-year undergraduate institutions nationwide.
    The bad news is that even this growth in capacity is failing to 
meet the demand for domestic nurse education. According to the American 
Association of Colleges of Nursing, schools of nursing turned away 
36,400 qualified applicants to baccalaureate programs in academic year 
2007. The National League for Nursing's (NLN) 2005-2006 study revealed 
that 88,000 qualified applications were denied due to lack of capacity 
in all three types of basic nursing programs. Baccalaureate degree 
programs turned away 20 percent of applications, while associate degree 
programs turned away 32.7 percent. In fact, one to two year waiting 
lists to get into domestic nursing programs are now commonplace.
                            nurse retention
    Consistently high turnover rates and dissatisfaction with the 
current work environment also continue to complicate efforts to address 
the nursing shortage. Experienced nurses are reporting high levels of 
burn out, turnover among new nurses is very high, and large numbers of 
nurses are leaving the profession outright. A study reported in last 
month's Journal of Nursing Administration shows that 43 percent of 
experienced nurses score abnormally high on indicators of job burnout. 
In a study released last year, the Price Waterhouse Cooper's Health 
Research Institute reported that 27 percent of new nursing graduates 
leave their first jobs within a year. These studies are consistent with 
many others taken over the last two decades.
    In an effort to ascertain the extent and cause of nurse discontent, 
ANA recently conducted an on-line survey of nurses across the nation. 
More than 10,000 nurses took the opportunity to express their opinions 
about their working conditions. Results from the survey, revealed on 
May 21, show that more than 50 percent of nurses are considering 
leaving their current job, and that nearly a quarter of all nurses are 
considering leaving the profession altogether. Sixty percent reported 
that they knew nurses on their unit who had left due to concerns about 
working conditions. It should concern all of us that the majority of 
nurses involved in this survey believe that the poor working conditions 
in their facility are harming patient care. More than 50 percent of the 
respondents stated that they believe that the quality of nursing care 
on their unit had declined over the last year, and that more than 48 
percent would not feel confident having someone close to them receive 
care in the facility where they work.
    Years of discontent with the work environment have led us to a 
situation in which an alarming number of our experienced RNs have 
chosen to leave the profession. The 2004 National Sample Survey of 
Registered Nurses conducted by the Department of Health and Human 
Services shows that a large number of nurses (488,000 nurses--nearly 17 
percent of the nurse workforce) who have active licenses are no longer 
working in nursing. Numerically speaking, if these nurses were to re-
enter the workforce today, the current shortage would be solved.
                              immigration
    The ANA opposes the use of immigration as a means to address the 
growing nursing shortage. As you are well aware, immigration is the 
standard ``answer'' proposed by employers who have difficulty 
attracting domestic nurses to work in their facilities. It is 
disheartening to be here contemplating large-scale nurse immigration 
yet again, when we have been down this road many times before without 
success.
    In addition to the impact of nurse immigration on the domestic 
workforce, there are serious ethical questions about recruiting nurses 
from other countries when there is a world-wide shortage of nurses. 
According to the Leonard Davis Institute of Health Economics, the 
source countries for foreign-educated nurses shifted toward low-income 
countries and those with a low supply of nurses during the period of 
1990 to 2000. This same report notes that almost 20% of the world's 
nursing population is in the United States, including half of all 
English speaking professional nurses.
    While the Philippine government's policy is to export professional 
labor, including nurses, the Philippine health care system has been 
strained by the rapid exodus of nurses. Philippine experts estimated 
that about 120,000 nurses had left the Philippines last year alone. An 
estimated 50,000 RNs left the Philippines between 2000 and 2005, but 
nursing schools managed to produce only 33,370 nurses over the same 
period. Press reports state that the resulting ``brain drain'' has 
pushed the Philippine health care system to the brink.
    The very real problems caused by mass emigration of nurses out of 
the developing world have caused international health associations to 
condemn current practices. In 2004, concerns about the impact of health 
care worker migration on countries origin prompted the World Health 
Organization to adopt a resolution urging member states to develop 
strategies to mitigate the adverse effects of migration of health 
personnel and minimize its negative impact on health systems. These 
same concerns prompted the International Council of Nurses to revisit 
the issue of nurse migration. Last year the ICN issued a position 
statement reaffirming the fact that the ``ICN condemns the practice of 
recruiting nurses to countries where authorities have failed to 
implement sound human resource planning and to seriously address 
problems which cause nurses to leave the profession and discourage them 
from returning to nursing.''
    In addition, ANA is concerned that immigrant nurses are too often 
exploited because employers know that fears of retaliation will keep 
them from speaking up. For instance, last year 27 nurses from the 
Philippines walked off their jobs in New York citing years of 
maltreatment by their employers and misrepresentations by their 
recruiters. Their complaints are very similar to those that I have 
heard made by literally hundreds of other immigrants. They were 
promised that they would be employed as RNs, but were made to work as 
lesser-paid staff; they were made to work unreasonable hours; they were 
not paid overtime. In the end, when these nurses walked off the job due 
to concerns about the quality of care being provided in their 
facilities, their employers brought criminal suits against them. While 
the majority of these suits have been dismissed, the legal 
entanglements that these nurses were forced to endure stands as a stark 
warning to other immigrants.
    ANA is pleased to have been part of the AcademyHealth's efforts to 
develop a Voluntary Code of Ethical Conduct for the Recruitment of 
Foreign Educated Nurses to the United States. This Code reflects a 
significant consensus building process that has resulted in a document 
that can guide efforts to reduce potential harms and increase benefits 
experienced by the U.S., the foreign-educated nurse, and potentially by 
the source countries. Stakeholders at the table included professional 
associations, hospital facilities, international recruiters, unions and 
academia. The next step is to establish a monitoring mechanism by which 
signatory companies and organizations can be held accountable.
                             real solutions
    ANA concurs with our colleagues at the American Hospital 
Association that the nursing shortage is a real concern that requires 
urgent action. We also agree that nurse immigration is a short-term 
``band aide'' approach to fixing the problem. ANA urges you to look 
beyond this eternal band aide and to support real long-term solutions 
to the ongoing nursing shortage.
    To begin with, I urge you to make a real investment in domestic 
nursing education. It is extremely short-sited to look overseas for RNs 
when more than 80,000 qualified students are being turned away from 
domestic programs every year. There are two programs already up and 
running at the Department of Health and Human Services that could make 
a real difference today. The Nurse Education Loan Repayment Program 
repays up to 85 percent of outstanding student loans for RNs who work 
full-time in a health care facility deemed to have a critical shortage 
of nurses. Similarly, the Nursing Scholarship Program covers the 
educational costs of nursing students who agree to work in shortage 
facilities. Both of these programs hold the promise of recruiting 
students into the nursing profession and to directing domestic nurses 
into facilities with the greatest need. Unfortunately, no real 
investment has been made in these programs. In fact, last year, the 
Health Resources and Services Administration was forced to turn away 
more than 93 percent of the applicants to the loan repayment program 
and more than 96 percent of the applicants to the scholarship program. 
In real numbers, this means that more than 9,000 RNs interested in 
working is the very facilities that are here today requesting an 
increase in nurse immigration were turned away from these programs due 
to lack of funding. Clearly, it is time to invest in nursing students
    In addition, ANA urges you to support the Nurse Education, 
Expansion, and Development (NEED) Act of 2007 (S. 446, H.R. 772). This 
legislation would provide flexible funding to domestic schools of 
nursing to help them increase their capacity to educate new nurses. 
Funding would be contingent on these schools increasing capacity, and 
on graduating students capable of passing the licensure exam required 
to become registered nurses. The NEED programs are necessary to allow 
our schools to address the myriad of problems they encounter when 
attempting to expand enrollment, the most notable of these currently 
being the nursing faculty shortage.
    In addition to supporting domestic nurse education and recruitment, 
we challenge our partners in the hospital community to work with us to 
improve nurse retention. This shortage will not be truly solved until 
the environment of care supports the maintenance of experienced nurses 
in patient care. As long as nurses are driven away by hostile work 
environments, as long as the new nurse turn-over rate hovers around 25 
percent per year, we will not have adequately addressed the root causes 
of this shortage.
    I am happy to report that nurses, in conjunction with health care 
facilities, are finding the means to combat this dissatisfaction. Real 
positive changes that make real results are underway in the nation's 
Magnet Hospitals. The American Nurses Credentialing Center's Magnet 
Recognition Program(r) identifies health care facilities that have 
fostered an environment that attracts and retains competent nurses 
through its respect for the values, art, and science of nursing. The 
Magnet designation was first granted to a group of hospitals that were 
able to successfully recruit and retain professional nurses during a 
national nursing shortage in the early 1980's. To this day, Magnet 
facilities outperform their peers in recruiting and retaining nurses. 
In fact, the average length of employment among registered nurses on 
staff is roughly twice that of non-Magnet hospitals. Most importantly, 
patients in Magnet facilities experience better outcomes and higher 
satisfaction with their health care.
    Currently, 289 health-care organizations in 45 states have been 
designated as Magnet facilities; including 14 facilities and systems in 
California, and six in Iowa. The Magnet Recognition Program(r) has been 
cited in reports by the American Hospital Association, the Joint 
Commission and others as an example of an innovative program that 
enhances recruitment and retention of nurses at the facility level. I 
believe that is it irresponsible for any facility to seek to solve 
their nurse staffing problems through immigration before they have done 
the internal work needed to improve retention. We know what works, and 
it mainly boils down to respect for the knowledge and needs of staff 
nurses, and an investment in quality patient care
                               conclusion
    In the end, ANA is concerned that the influx of foreign-educated 
nurses only serves to further delay debate and action on the serious 
workplace issues that continue to drive American nurses away from the 
profession. In the 1980's a Presidential task force called to 
investigate the last major nursing shortage developed a list of 
recommendations. These 16 recommendations, released in December, 1988, 
are still very relevant today--they include issues such as the need to 
adopt innovative nurse staffing patterns, the need to collect better 
data about the economic contribution that nurses make to employing 
organizations, the need for nurse participation in the governance and 
administration of health care facilities, and the need for increased 
scholarships and loan repayment programs for nursing students. Perhaps 
if these recommendations were implemented we would not be here today. 
Certainly, we will be here in the future if they are ignored.
    ANA maintains the current nursing shortage will remain and likely 
worsen if the glaring needs of schools of nursing are ignored and if 
challenges in the workplace are not immediately addressed. Registered 
nurses, hospital administrators, other health care providers, health 
system planners, and consumers must come together in a meaningful way 
to create a system that supports quality patient care and all health 
care providers. We must begin by improving the environment for nursing.
    ANA looks forward to working with you and our industry partners to 
make the current health care environment conducive to high quality 
nursing care. We appreciate the ongoing work and continued negotiations 
that the Subcommittee is engaged in on this issue and hope to continue 
to work with you to seek a solution that meets the needs of America's 
nursing workforce and our global colleagues. The resulting stable 
nursing workforce will support better health care for all Americans.

    Ms. Lofgren. Thank you very much.
    And our last witness is Mr. Francy.

        STATEMENT OF STEVEN FRANCY, EXECUTIVE DIRECTOR, 
                 RNS WORKING TOGETHER, AFL-CIO

    Mr. Francy. Yes. My name is Steve Francy. I am the 
executive director for RNs Working Together.
    I want to thank you for the opportunity to present our 
views on the issue of whether the expansion of work visas to 
foreign nurses is an appropriate solution to the nursing 
shortage that our Nation faces.
    First, a little bit about the organization RNs Working 
Together: We are a coalition of 10 AFL-CIO unions who represent 
over 200,000 working registered nurses. Each affiliate union 
has two of its nurse leaders who serve on my leadership 
committee. We are a democratic organization and operate by 
building mutual agreement among our Members regarding issues 
that concern registered nurses.
    First of all, the continuing shortage of registered nurses 
is a problem that virtually everyone acknowledges. If you were 
to walk the halls of American hospitals and ask a nurse what is 
the number one problem she or he faced, they would probably 
say, ``We do not have enough staff to deliver quality care.''
    While we appreciate everyone's efforts in trying to address 
this crisis, we do not believe that relying upon thousands of 
additional foreign nurses to deliver health care in the United 
States is an appropriate solution to the nursing shortage.
    There are many factors that contribute to the nursing 
shortage. Two of the major factors that I would like to draw 
your attention to today is our inability to train enough 
Americans to become registered nurses and the difficult working 
conditions that nurses face. To resolve these and other factors 
that contribute to the nursing shortage will require a focused, 
comprehensive strategy.
    First, we do not have the capacity to train enough nurses. 
Last year alone, approximately 150,000 qualified applicants for 
nursing schools were turned away because there were not enough 
seats available. Our inability to train these applicants is due 
to a shortage of RN faculty who are often paid less than 
practicing nurses.
    Congress needs to pass legislation that will increase the 
capacity of nursing schools to train nurses. This would include 
incentives to attract nurse faculty as well as to actively 
recruit and provide financial assistance to those Americans who 
would like to become nurses.
    In addition, it is estimated there are about 2.9 million 
licensed RNs in the United States, but only 2.4 million are 
providing care to patients. Hundreds of thousands of licensed 
nurses have left the bedside in favor of the many other job 
options now available from outpatient care, computer jobs, 
pharmaceutical jobs, or leaving nursing entirely.
    A key reason for this migration away from the bedside is 
that chronic understaffing and unmanageable workloads are a 
day-to-day reality. While increasing the number of visas may 
seem like an easy solution, in reality, it does nothing to 
retain nurses that are already trained, skilled professionals.
    Stopping this leakage of nurses will require Congress to 
direct their attention to this issue and pass legislation that 
will directly improve working conditions. Examples include 
prohibiting mandatory overtime, passing minimum staffing 
ratios, and safe patient care to reduce injuries of nurses.
    We are confident by taking these steps, many of those 
nurses who have left the profession and are now thinking about 
leaving the profession will come back and care for America's 
sick.
    As you know, America is not the only country facing a 
nursing shortage. Indeed, there is a worldwide shortage of 
registered nurses. Thus, the use of immigration policies that 
allegedly benefit one country in the short run can be 
devastating to a developing country's ability to deliver health 
care to their citizens.
    Some countries have even a greater shortage of nurses, and 
any loss of the nurses they have trained can undermine their 
government's efforts to staff their own hospitals and clinics. 
In 1 year alone, Ghana lost more than 500 nurses, more than 
double the number of its new graduates. In the Philippines, not 
only are they losing more nurses than graduate from nursing 
school, now even doctors--some doctors--are training to become 
nurses in the hope that they will find employment in the United 
States. In Zimbabwe, it has been estimated that the nurse-to-
patient ratio is one nurse to every 700 patients.
    Obviously, nurses in developing countries will find coming 
to America for a job very attractive because of the increase in 
their income, but expanding nurse visas simply outsources nurse 
training to developing countries and robs them of many of the 
nurses they have trained.
    In sum, taking nurses from poor countries will have a small 
short-run impact on the U. S. while increasing the short-and 
long-term misery of poor and developing countries.
    Again, I understand that increasing the number of work 
visas seems like an easy solution. However, we believe that 
developing a comprehensive long-term strategy that addresses 
the factors contributing to the nurse shortage in our country, 
such as increasing our capacity to educate new nurses and 
improving working conditions, is a more productive use of time 
and resources and is the only real way in which America can 
solve this long-term issue.
    Thank you for this opportunity to provide testimony 
regarding this important and difficult issue.
    [The prepared statement of Mr. Francy follows:]
                  Prepared Statement of Steven Francy
    My name is Steven Francy and I am the Executive Director of RNs 
Working Together, AFL-CIO. I want to thank you for the opportunity to 
present our views on the issue of whether the expansion of work visas 
to foreign nurses is an appropriate solution to the nursing shortage 
that our nation faces.
    First a little about the organization RNs Working Together (RNWT). 
We are a coalition of ten AFL-CIO unions who represent over 200,000 
working registered nurses. Each affiliate union has 2 of its nurse 
leaders who serve on the RNs Working Together Leadership Committee. One 
of their responsibilities is to set policy for our organization. We are 
a democratic organization and operate by building mutual agreement 
among our members regarding issues that concern working registered 
nurses.
    First of all, the continuing shortage of Registered Nurses is a 
problem that virtually everyone acknowledges. If you were to walk the 
halls of America's hospitals and asked a nurse what is the number one 
problem that they face, they would probably say, ``we do not have 
enough staff to deliver quality care.'' While we appreciate everyone's 
efforts in trying to address this crisis, we do not believe that 
relying upon thousands of additional foreign nurses to deliver health 
care in the United States is an appropriate solution to the nursing 
shortage.
    There are many factors that contribute the current nursing 
shortage. Two of the major factors that I would like to draw your 
attention to today is our inability to train enough Americans to become 
registered nurses and the difficult working conditions that working 
nurses face. To resolve these, and other factors that contribute to the 
nursing shortage, will require a focused, comprehensive strategy.
    First, we do not have the capacity to train enough nurses. Last 
year alone, approximately one hundred and fifty thousand (150,000) 
qualified applicants for nursing schools were turned away because there 
were not enough seats available. Our inability to train these 
applicants is due to a shortage of RN faculty who are often paid less 
than practicing nurses. Congress needs to pass legislation that will 
increase the capacity of nursing schools to train nurses. This would 
include incentives to attract nurse faculty as well as to actively 
recruit and provide financial assistance to those Americans who would 
like to become nurses.
    In addition, it is estimated that there are 2.9 million licensed 
RNs in the U.S., but only 2.4 million are providing care to patients. 
Hundreds of thousands of licensed nurses have left the bed-side in 
favor of the many other job options now available from outpatient jobs, 
computer jobs, quality management, doctor's offices, pharmaceutical 
jobs or leaving nursing entirely. A key reason for this migration away 
from the bedside is that chronic understaffing and unmanageable 
workloads are a day-to-day reality. While increasing the number of 
visas may seem like an easy solution, in reality it does nothing to 
retain nurses that are already trained, skilled professionals. Stopping 
this leakage of nurses will require Congress to direct their attention 
to this issue and pass legislation that will directly improve working 
conditions. Examples include prohibiting mandatory overtime and 
requiring hospitals to meet safe minimum staffing levels. We are 
confident that by taking these steps, those nurses who have left the 
profession and those that are now thinking about leaving the profession 
will come back and care for America's sick.
    As you know, America is not the only country facing a nurse 
shortage. Indeed there is a worldwide shortage of registered nurses. 
Thus the use of immigration policies that allegedly benefit one country 
in the short-run can be devastating to a developing country's ability 
to deliver health care to their citizens. Some countries have an even 
greater shortage of nurses and any loss of the nurses they have trained 
can undermine their government's efforts to staff their own hospitals 
and clinics. In one year alone, Ghana lost more than 500 nurses--more 
than double the number of its new nurse graduates. In the Philippines, 
not only are they losing more nurses than graduate from nursing 
schools, now even doctors are training to become nurses in the hopes 
that they will find employment in the U.S. In Zimbabwe, it has been 
estimated that the nurse to patient ratio is 1 nurse to 700 patients. 
Obviously, nurses in developing countries will find coming to America 
for a job very attractive, as they will experience a great increase in 
their incomes. But expanding nurse visas simply out sources nurse 
training to developing countries and robs them of many of the nurses 
they have trained. In sum, taking nurses from poor countries will have 
a small short-run impact on the U. S. while increasing the short and 
long-term misery of poor, developing countries.
    Again, I understand that increasing the number of work visas seems 
like an easy solution. However, we believe that developing a 
comprehensive long-term strategy that directly addresses the factors 
contributing to the nurse shortage in our country, such as increasing 
our capacity to educate new nurses and improving working conditions, is 
a more productive use of time and resources and is the only real way in 
which America can solve this long-term issue.
    Thank you again for the opportunity to provide testimony regarding 
this important and difficult issue. I can answer any question you can 
have.
    RNs Working Together is a coalition of the following 10 AFL-CIO 
unions representing over 200,000 registered nurses. We are America's 
largest organization of working registered nurses.

    American Federation of Government Employees
    American Federation of State, County and Municipal Employees
    American Federation of Teachers (AFT-Health Care)
    California Nurses Association/National Nurse Organizing Committee
    Communications Workers of America
    JNESO/International Union of Operating Engineers
    Office and Professional Employees International Union
    United American Nurses
    International Union, United Autoworkers
    United Steelworkers

    Ms. Lofgren. Thank you very much, Mr. Francy.
    And thanks to all three of these witnesses.
    Now is the time when we can address our questions to the 
witnesses.
    Mr. King, would you like to go first?
    Mr. King. I would be happy to. Thank you, Madam Chair.
    And I especially also want to thank the witnesses for your 
testimony.
    It is a subject matter that has been consistently presented 
to me in the district that I represent that goes back many 
years. We have had a nursing shortage in my district, and, in 
fact, I remember bonuses being paid to recruit our nurses to go 
to other locations in the country, none of which you represent.
    But I remember sitting in a room at Crawford County 
Memorial Hospital where all of our children were born, and I 
had a conversation there with nine nurses. Of the nine nurses, 
seven of them, their husbands farmed, and they were tied to the 
land, and they could not accept the higher offer to go 
elsewhere in the country, the $10,000 bonus at that time, which 
probably is higher now.
    So I am watching market forces push on this as well as the 
education. I was really quite struck by the number of nursing 
students that were qualified applicants that were turned away.
    I think I saw 150,000 was the number that, Ms. Stonestreet, 
you testified to, and I am curious as to how many RNs there are 
in the United States that are qualified and what percentage 
that works out to be, one out of every how many are nurses?
    Ms. Stonestreet. I am not sure that I understand the 
question. There are, in fact, different numbers that are 
reported in the literature about how many qualified applicants 
are available to enter into nursing school, everything from 
88,000 I have seen, 150,000, but the bottom line is I think 
part of the difference in the numbers and how they calculate 
that has to do with whether they are counting applications or 
applicants and how many are offered positions.
    But the fact of the matter is we do not have a good long-
term strategy and a short-term strategy in place right now to 
be able to get those----
    Mr. King. Excuse me. I have information in front of me that 
is from the National Sample Survey of Registered Nurses that 
says that there are 2.9 million registered nurses nationwide. 
Does that seem to be in the----
    Ms. Stonestreet. Yes.
    Mr. King. [continuing]. Context you were talking about? And 
we are expecting a shortage of about a million. Now I have to 
express a little bit of skepticism because in my public life 
every profession that I know of is going to have a shortage of 
employees. It just demographically works out that way. And what 
do we do about it?
    I ask you to take advantage of the opportunity to respond 
to Mr. Francy's testimony that says, ``Let's put an American 
solution in place.'' And why would we not ramp up our schools? 
Why wouldn't we find a way to bring in all the qualified 
applicants? Why wouldn't we pay an additional $12,000 or 
$14,000 or $18,000 more to nurses that are currently practicing 
that would be excellent teachers instead? Why would we not tool 
that up and say, ``We can fix this.''
    Ms. Stonestreet. Well, I think there are several 
different--and I appreciate the comments that were made here--
components.
    Number one, there are a number of individuals who are 
registered nurses in our country today who are not practicing 
in hospitals, who are not practicing within the direct-care 
environment. I mean, this room might actually be a microcosm of 
our country, the experience that I have seen, individuals who 
go on and they have been trained as an RN, they practice, but--
--
    Mr. King. But does his testimony contribute to the 
solution? Do you disagree with Mr. Francy's testimony?
    Ms. Stonestreet. I do not disagree with the long-term 
solution. What I do disagree with is that we need a solution 
today. If there is one thing that keeps me awake at night, it 
is that we do not have enough nurses to take care of our 
patients today.
    Mr. King. Let me just speculate, and then I will turn this 
back to Mr. Francy.
    Thank you.
    I look at these numbers, and they range from 40,000 to 
150,000 applicants that are turned way, because of a shortage 
of teachers. It seems to be the number one reason. And 
facilities are another, and I have watched education facilities 
in my district be ramped up because we need to do this, and I 
certainly support that and encourage it.
    But if it is 150,000 applicants that are turned away and we 
are going to have a cumulative shortfall of a million by the 
year 2020 or about 2008, so it is less than 100,000 a year that 
would be the accumulated shortfall, would there be a reason you 
could think of, Mr. Francy, why we could not meet that need 
here without having to go out and short other nations for the 
nurses that they are training?
    Mr. Francy. I think that we could in addition to those that 
apply now. If we were to actively recruit in the United States 
and provide financial aid to Americans that were interested in 
entering the nursing profession, I do not see any reason why we 
could not.
    Mr. King. Now I would just follow up and say as a 
representative of AFL-CIO and the nurses, you and I agree that 
this country needs a tighter labor supply because the wages and 
benefits that are paid to our workers, both skilled and 
unskilled, are directly proportional to the supply and demand. 
Would you respond to that, Mr. Francy?
    Mr. Francy. Again, you know, I think that there are 
certainly issues with suppressing wages with foreign workers in 
some cases, in organizing drives, for example, union organizer 
drives. Foreign workers are more vulnerable to threats that if 
they support the union that they would be deported from the 
United States.
    Ms. Lofgren. The gentleman's time has expired. I know we 
have votes very soon.
    Mr. King. I thank you, Madam Chair, and I am happy to yield 
back.
    Ms. Lofgren. Thank you.
    I would turn now to Mr. Gutierrez for any questions he may 
have.
    Mr. Gutierrez. Thank you. Thank you very much.
    Well, thank you for your testimony here this afternoon.
    I have an experience in Chicago where two of the largest 
hospital organizations--one is being attempted to be organized 
by AFSCME and the other one by SEIU. Do you have any 
information on how that is going and how that might affect the 
nursing shortage or ability of nurses?
    Mr. Francy. Well, I know that AFSCME Council 31 is 
organizing the Resurrection system in Chicago, and it has been 
a very difficult and long, drawn-out fight. Other than that, I 
do not have any specific information.
    Mr. Gutierrez. Because when I met with AFSCME and I met 
with SEIU, what it is trying to organize, interestingly enough, 
are religious institutions. There is one under the United 
Church of Christ, and the other, under the Catholic Church, and 
it seemed to me that many of the conversations that we had were 
around nurses and the hours that nurses were required to work.
    Mr. Francy. Yes. If you ask nurses what is their number one 
problem, they will tell you that it is short staffing. In fact, 
in one nurse survey, 83 percent of RNs responding to the survey 
said that increasing staffing levels would be very successful 
in retaining and recruiting new nurses. So it is a huge 
problem.
    Mr. Gutierrez. You know, as someone who advocates 
comprehensive immigration reform, I am very, very mindful to 
all of the witnesses about, as we move forward, making sure 
that where we build the jobs, it is really jobs that Americans 
do not want.
    I think American citizens should be afforded, those that 
are born here should be afforded the absolute opportunity to a 
job anywhere in the United States, regardless. I think that 
should be paramount to any comprehensive immigration reform 
program that we have, and so the testimony today really is 
important because we do not want to deny American workers or we 
do not want to create a situation which denies American workers 
the opportunity.
    These are not low-skilled, low-wage job opportunities, 
which we many times speak to the need as our economy creates 
hundreds of thousands of low-skilled, low-wage jobs in 
different demographic areas throughout the United States that 
we may need.
    And so I thank the witnesses because we have their full 
written testimony which we read and then listened to your 5 
minutes on the clock which is a great summary of what you have 
to say.
    And lastly, as we look at this, I would say let's deal with 
it in a comprehensive manner because it is not only nurses. 
There are other sectors of our economy where we want to make 
sure that we supply needed labor, and I think we will need that 
labor.
    I mean, as a baby boomer myself--I know all three of you 
are too young--I keep thinking about, you know, over 40 percent 
of our workers in the next 20 years, the youngest one will be 
65 years of age. That is something that we have not encountered 
in our economy before.
    I just read in The Washington Post we are living longer, 
and they said that Black and Hispanic males are, I mean, 
tightening with White males and women. That is a good thing. 
That is a good thing. That means that there is more parity in 
health care and in economics and the people that are living 
about the same time.
    But, you know, it is like 81 years for women and 78 years 
for men, and when you consider the drain that we are going to 
have, I think we really need to have a global view of how we 
address this within our workforce. You know, another 10 years, 
I will be 64. Another 15 years, I will be 70.
    I want to make sure there is a nurse there. I want to make 
sure that there are qualified nurses there. I want to make sure 
that our health care system can be responsive not only to me, 
but literally the tens of millions of others like me who will 
be retiring and in much need.
    So, if you think the problem is bad today, give this 
another 15 years. It is going to be critical to our economy.
    So I thank you all for your testimony.
    Ms. Lofgren. Thank you, Mr. Gutierrez.
    I just want to say a couple of things and ask a couple of 
questions.
    First, let me say Mr. King is from Iowa. There have been a 
number of emergencies, as we are well aware in Iowa, and he had 
to go take a call from Secretary Chertoff, and I know that 
everyone will understand that is his first obligation, 
obviously, today.
    Before I was in Congress, I was on the board of supervisors 
of Santa Clara County, and one of our obligations there was to 
run the county hospital, and I chaired the hospital committee 
for 12 years, and every week we would oversee, and I learned a 
lot about the whole health care business in that.
    One of the things we had a very tough time was recruiting 
nurses, and it got to the point where we were in high school 
helping to pay for kids to go to nursing school. We were also 
recruiting in Ireland. I mean, we did everything.
    And the other thing we did was we raised salaries 
substantially. I mean, when I first was elected, the salaries, 
I thought, were pretty low. They ended up being quite high, 
actually, which is good because it is a hard job and it takes a 
great education, and so that was a good development.
    But what is interesting is that as those salaries rose, 
nobody raised the salaries of the professors, and so now we 
have a shortage situation. I am a co-sponsor of Lois Capp's 
bill to increase--a strategy because I know people in the 
technology world, for example, who decided they would rather be 
a nurse. I mean, these are people with science backgrounds that 
they have been turned away from nursing schools because there 
are not enough slots. So, clearly, I think everybody agrees we 
have to remedy that.
    You know, I have been one who has supported mandatory 
staffing ratios. I think that is part of the picture of having 
high nurse satisfaction, but, in order to do that, you have to 
have enough nurses. So the question is which comes first, how 
do we implement this strategy that I think there probably is 
not that much disagreement really in terms of where we want to 
end up, how do we get there.
    Ms. Peterson, at the end of the day, do you support or does 
the ANA support or oppose the bill that Wexler, Sensenbrenner, 
and Feeney have introduced? Can you address that?
    Ms. Peterson. Yes, I can.
    At this point, we will not oppose it. There are elements of 
it that we think are useful, but I want to just step back for 
one moment because one thing I said in my testimony is we are 
10 years into this nursing shortage. Ten years we have been 
talking about education, 10 years we have been talking about 
faculty, and yet the reality for nursing education funding is 
it has not gone up all that dramatically.
    So to sit here and talk about Congressman Wexler's bill 
that has elements of it that are good--we appreciate the NEED 
Act being included, we appreciate that there is some 
understanding of the need for the circulation of workers to be 
able to go back home and be able to come back in, but the 
fundamental problem that you have already spoken to still has 
not been addressed, and we have been talking about this for 10 
years.
    So, at this point, we will not oppose it. We recognize it 
as a short-term strategy. We do not like it. We believe that we 
need to be addressing the fundamental problem, and that is 
funding for nursing education, and, quite frankly, if we get to 
the end of the time period of Mr. Wexler's bill, at the end of 
that period, and we still do not have any data and we still 
have not seen see an increase in nursing education funding and 
we still have not seen some of these other workforce issues 
being addressed, we will not be supporting it again.
    Ms. Lofgren. I understand. That is very helpful 
information.
    Maybe, Dr. Stonestreet, I do not know if you know this or 
not, but isn't there at least a funding mechanism in the Wexler 
bill?
    Ms. Stonestreet. Yes.
    Ms. Lofgren. I mean, I am not saying it is going to cover 
all of it, but it will help.
    Ms. Stonestreet. Right, but there is $1,500 per nurse who 
is employed. The facilities that would bring them over would 
pay that, which would go into the funding for education.
    Ms. Lofgren. But I think, you know, if you look at the 
city--for example, San Jose State in my district has a school 
of nursing, but they have had to turn people away because they 
do not have enough professors, and there is really a capacity 
problem there, even though they have great applicants. I do not 
blame the university, they do not have the money, and we have 
to do something about this as a nationwide strategy, it seems 
to me, and I understand the frustration.
    I was in the minority in the House for 12 years, and I have 
been in the majority now for 16 months, and so we have not 
achieved everything we wanted to achieve in that timeframe, but 
the speaker has put a tremendous emphasis on funding for 
education and also science funding, and I personally know that 
she believes that is such a compelling need for our country 
that I have actually renewed confidence that some of these 
items that have been languishing are going to be dealt with 
because I do not think the three of you are really disagreeing 
when it comes to that, and that is the interesting thing.
    You know, my light is on, and that would not be fair to Ms. 
Jackson Lee, who I will now recognize for 5 minutes.
    Ms. Jackson Lee. Thank you very much, Madam Chair.
    And let me suggest to the witnesses and those who were on 
the first panel that when you see Members rushing in--of 
course, the Chairwoman has indicated, the challenges for the 
Ranking Member--some of us have been on other Committees. But 
we rush in for the very reason that we are very much in sync 
with the Chairwoman's continued march toward a solution.
    We on this side of the aisle have always wanted or wished 
for, if you will, a comprehensive approach to immigration 
reform that would in essence broadly speak to many of the 
issues that we are having a hearing on, but you will also find 
very sympathetic advocates for the funding of more education 
for engineers, for nurses.
    And, of course, our colleague Congressman Gutierrez 
mentioned that a nursing crisis is a health crisis, it is a 
life and death crisis, and so I apparently came in on the very 
appropriate panel.
    But please know that I want to put on the record that we 
have been meticulously meeting over these 16 months and 
building the building blocks to say that we have to have a 
comprehensive immigration reform package. I would also 
acknowledge, because many of us have legislative initiatives 
that track sort of the same theme, to solve this problem both 
in terms of benefits, in terms of the need for additional 
expertise that immigrants bring--and also border security--the 
legislation that I have, the comprehensive Save America Act, 
also responds to the question of American workers, hiring 
American workers, training American workers, using resources 
that you would have to invest in underemployed areas and areas 
where we need more training.
    So let me acknowledge where we are trying to go and accept 
also the burden of being in the minority and the lack of focus 
on nursing education, since the witnesses are addressing that 
question. I have purview of A&M School of Nursing in my 
congressional area, and it is climbing the mountain of 
excellence. It is getting better and better and better and 
better every year, but the resources are limited.
    So let me acknowledge that the immigration aspect is only a 
piece of the puzzle, that we certainly need to look at the 
domestic supply of nurses, and we have to acknowledge that 
Congress has not done enough and find a way to reach an 
immediate balance. So I would ask the question that you may 
have had already in your testimony, if each of you would answer 
it as to tell me the length and breadth of the nursing 
shortage, number one. Number two, a quick infusion of dollars 
into nursing education, how quick would we get relief, and that 
means we are talking about drawing upon the domestic base.
    And then what is the enhanced value of an immigration 
component through visas that would allow these skilled workers 
to come in? We had an electrical engineer. I have heard from 
African-Americans who indicate they are presently available. No 
one recruits them. So what would be the immediate benefit of an 
immigration fix, if you will, that would bring nurses in from 
around the world?
    I know some of you are taking notes, and I appreciate it, 
and apologize. I want to add a component of transitional 
training, what that means is language and techniques maybe, 
comfort level. You could include that in your answers.
    And I will start first with who seems to be writing the 
fastest, Jana Stonestreet.
    Ms. Stonestreet. I appreciate that. Thank you.
    I think I will address first of all the immediate benefit. 
In our hospital system--and I can speak for it, but within San 
Antonio, within the Baptist Health Care System--we have 
presently 236 nursing positions that are open. So an immediate 
benefit that we would get for this short-term relief with the 
immigrant nurses would be to be able to fill those positions.
    We have had 88 nurses that we actually interviewed 2\1/2\ 
years ago. Eighty of those still, even though they are 
qualified and ready to come, are not able to come yet because 
of the immigration restrictions that are present.
    Ms. Jackson Lee. The caps?
    Ms. Stonestreet. The caps that are present today. So the 
immediate solution would be to help us.
    And I think one of the things that we have talked about is 
the work environment, and which comes first, the chicken or the 
egg, how does it really come. Well, if you do not have enough 
nurses today, then the environment is not as positive because 
we are working shorter, it is more stressful, and so on. So, if 
we can get over kind of a little bit of the hump and be able to 
get enough nurses to be able to work and to fill the positions, 
it can help us carry through and create that better environment 
that we all really work for.
    You know, one of the things that is somewhat offensive as a 
nurse executive within a hospital system--and that has been my 
role since 1991 within three hospital systems--is the 
implication that we are not trying to create the best 
environment, not trying to create an environment that is 
positive. I will tell you we are doing, you know, cartwheels 
trying to be able to make that happen.
    Ms. Lofgren. Dr. Stonestreet, the time has expired, and if 
you could just very quickly sum up, and then if we could get 
quick answers from the other two witnesses because we have run 
out of time.
    Ms. Stonestreet. Absolutely. I think those are the key 
points that I wanted to be able to make and, hopefully, have 
then answered your question.
    Ms. Jackson Lee. Thank you.
    Ms. Peterson?
    Ms. Peterson. Thank you very much.
    I guess I will talk to the piece of the transitional 
challenges that you added at the end. ANA just completed a 
series of three regional conferences where we were trying to 
look at what types of programs existed in hospitals and also 
within the recruiters who recruit and bring the nurses here. 
When we bring them here, how do we be sure that they are 
successful?
    We know that one of the biggest barriers is really language 
and communication, and so the programs that we saw--some were 
in Chicago. There is one at Johns Hopkins, also University of 
Pennsylvania--they have made an effort to try and really, one, 
assist the foreign-educated nurse when she or he comes to the 
U.S. in terms of just understanding how do I get a bank 
account, where am I going to live, how do I get from here to 
there, and then they have courses that are related to 
understanding language and lingo, and in particular medical 
terminology here in the U.S.
    The other critical piece to that is helping them to 
understand the culture, meaning the relationship between 
physicians and nurses and other health care providers, and also 
understanding that relationship from the perspective of 
patients, family, and community.
    Ms. Lofgren. Thank you.
    Mr. Francy, you are doing cleanup, and then we will 
adjourn.
    Mr. Francy. Thank you. One of the things that was kind of 
implied was kind of the bang for the buck, and we have talked a 
lot about education, and if you considered this bottle of 
pouring more water into that, that would be increasing the 
supply of education which would fill it up.
    Ms. Jackson Lee. Which is crucial.
    Mr. Francy. Crucial. But there is a hole in this bottle and 
there is leakage. Water is coming out. Those are nurses that 
are leaving the profession. They are leaving the profession 
because of staffing levels, of injury rates--it is a very high 
injury profession--and mandatory overtime, et cetera, and so 
the point I am trying to make is that education is 
fundamentally a part of this solution, but also addressing the 
working conditions of registered nurses has to be part of the 
solution to plug this hole so, while we are pouring in, it is 
filling up and not just, you know, going up and down.
    Ms. Jackson Lee. I thank the witnesses.
    Madam Chair, I yield back to you by reemphasizing my 
continued point of the importance of recruiting American 
workers for these positions as we look to emergency relief, and 
taking Mr. Francy's point of working conditions so that no 
matter who you are, African-Americans or Anglos, Asians, or 
Hispanics who are Americans here, who could be workers need to 
be included in this package as we look to solve this problem 
through the immigration process, and, of course, the final 
point is continue to push for comprehensive immigration reform.
    I yield back.
    Ms. Lofgren. Thank you.
    The gentlelady yields back.
    We will now be adjourning our hearing. I want to thank each 
of you as well as the first panel.
    A lot of people do not realize that the witnesses are 
volunteers, really coming to help the Congress try and get it 
right when we look at legislation. We do appreciate your 
service for your country as witnesses.
    We will keep the record open for 5 days. If we have 
additional questions for any of you or the first panel, we will 
forward them and, if that occurs, we would request that you 
answer them as promptly as possible.
    Once again, than you very much, and this hearing is 
adjourned.
    [Whereupon, at 2:08 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Subcommittee Members, our witnesses, 
and members of the public to the Subcommittee's hearing to explore the 
need for green cards for highly educated employees in the fields of 
science, technology, engineering and mathematics (STEM), as well as 
nursing.
    There is a recognized shortage of U.S. employees available to fill 
jobs requiring the highest educational levels, particularly in the 
fields of STEM.
    According to the National Foundation for American Policy:

        Major U.S. technology companies today average more than 470 
        U.S.-based job openings for skilled positions, while defense 
        companies have more than 1,265 each, indicating U.S. businesses 
        continue to experience difficulty in filling positions in the 
        United States for skilled labor of all types.

    At the same time that our country is experiencing a shortage in 
U.S. employees at the highest educational levels, employers from 
Europe, Australia, Canada, and even China and India, are increasingly 
attracting to their shores the highly educated, high achieving 
scientists, engineers, mathematicians and researchers that are the 
foundation for innovation. In 2000, for example, 75% of the world's 
engineers were hired by U.S. employers--just six years later, in 2006, 
that percentage dropped to 63%.
    Today, more than half of the graduates from U.S. universities in 
masters and Ph.D. programs in science and engineering are foreign-born. 
To ensure that America remains the greatest source of innovation in the 
world, we must not only educate more U.S. students in STEM, we must 
retain the best and brightest innovators among them so that they can 
work with us, rather than compete against us in other countries.
    In addition, at the same time that nursing schools are unable to 
produce enough nurses to meet existing health care needs around the 
country, the demand for nurses is projected to continue increasing at 
high rates as the Baby Boom Generation hits retirement and birth rates 
plunge. Currently, 12.4% of the U.S. population is age 65 and older; 
that percentage is projected to increase to 16.3% in 2020 and 20.0% in 
2030.
    I look forward to hearing from our witnesses today on how the 
current immigration system has failed to respond effectively to these 
economic and health care needs, and what might be done to address the 
situation in the near and long term.

                                <F-dash>

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    Today we are looking at long-term legal immigration solutions for 
graduates in the fields of science, technology, engineering and 
mathematics--known as ``STEM''--as well as in the field of nursing.
    We have bipartisan legislation before the Committee on both issues. 
I would like to thank Zoe Lofgren, Robert Wexler, and Jim Sensenbrenner 
for their leadership on H.R. 6039 and H.R. 5924.
    Before I comment on these bills, I would like to point out that on 
the issues before us today, labor and business interests have worked 
together in good faith to develop pragmatic solutions. Nursing groups 
and the SEIU have worked with the hospitals to come up with a good 
first step in dealing with the nursing shortage. The engineers and the 
high-tech companies have come to a common ground to get the best 
foreign talent while preventing worker exploitation. It's my hope we 
can make the same commitment to break the immigration logjam.
    Turning first to Ms. Lofgren's bill, H.R. 6039, this measure will 
help the United States to keep the best and brightest STEM graduate 
students.
    Think for the moment of a foreign student at University of Michigan 
or Wayne State who does an internship with one of the car companies. 
The reality is that the major automakers are working round the clock on 
critical research and development of fuel-cell technologies, electric 
vehicle technologies, and other fuel-efficient alternatives. And, the 
reality is that many of the researchers on the cutting edge are foreign 
students.
    With soaring oil prices clobbering hard-working Americans all 
across the country, this work is absolutely essential to our national 
interests. The research that these engineers perform, and the products 
they develop, will keep American manufacturers competitive, and will 
keep and create jobs in Michigan and in the United States.
    But when they graduate, they can't move into a permanent job offer 
from the American company, but have to leave the country and go wait in 
the horribly backlogged line for employment visas. So if the American 
automaker or supplier wants to continue their research, the engineer 
will at best have to work for a foreign subsidiary in Canada, India, or 
Mexico. More likely, we will lose them altogether It makes no sense to 
make these graduates leave.
    The current system is bad for the graduates, bad for the companies, 
and hurts the communities that they had been part of while in school. 
By focusing on the green card track, these workers are at less risk of 
exploitation than in a temporary guestworker program. As a result, the 
Institute of Electrical and Electronics Engineers is in favor of this 
approach.
    The notion that high-skilled immigrants are an economic engine is 
proved every day, as we see other countries--such as Singapore and 
Switzerland--try to snatch the best and brightest foreign students away 
from us.
    As with all immigrants, these graduates aren't just an economic 
engine, but a cultural engine as well. Their continued presence will 
have a long-term benefit to effect on our communities and our Nation. 
This is not just a theory, or rhetoric. Just look at Senator Barack 
Obama, the son of a graduate student at University of Hawaii, or 
Governor Bobby Jindal, whose mother came to Louisiana State University 
as a graduate student in physics.
    Secondly, on the nursing front, we will hear from our experts about 
H.R. 5924, Mr. Wexler's bipartisan bill with Mr. Sensenbrenner as an 
original cosponsor. This bill seeks to address the nursing shortage. As 
many citizens in our Nation are aging, there is a rising shortage of 
nurses, home care workers, and physical therapists, especially in rural 
areas.
    Congressmen Wexler and Sensenbrenner have worked with the Hospital 
Administrators, the Nurses Association, and the SEIU to address this 
shortage with a blend of immigrant and domestic capacity-building.
    The idea is an elegant one. First, the bill exempts up to 20,000 
nurses and therapists per year from the notoriously backlogged 
employment-based visa caps.
    Then, using funds from fees paid by the hospitals who benefit from 
employing those foreign nurses, the bill will fund grants to U.S. 
nursing schools, which in recent years have had to turn away more than 
100,000 applicants a year because they lacked sufficient faculty and 
laboratories.
    This is a good start to deal with this pressing problem. We will 
need to do more. I hope to soon introduce legislation to provide even 
more funding for the schools and nursing scholarships, and to get more 
PhD-level instructors and experienced nurses into faculty positions.
    We also need to have a concerted effort for retention. Nursing is a 
hard job, and the average tenure is from 4 to 7 years because of the 
stress and the current health care system. When we get to universal 
health care--as we must--it will be the nurses who are on the front 
lines.
    These two proposals are exactly the kind of cooperation and 
pragmatism that we should encourage and support. I applaud these bills' 
sponsors for taking these productive steps, and I thank the witnesses 
for appearing before us today.

                                <F-dash>

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Thank you, Chairwoman Lofgren, and ranking member King, for 
convening today's very important oversight hearing on green cards for 
highly skilled workers. This hearing will explore the need for green 
cards for highly educated employees in the fields of science, 
technology, engineering and mathematics (STEM), and nursing. I welcome 
the testimony of today's witnesses.
    Increasingly, the evidence continues to show that immigration is 
good for the economy, jobs, and a critical part of our nation's 
prosperity. There is a recognized shortage of U.S. employees available 
to fill jobs requiring the highest educational levels, particularly in 
the fields of science, technology, engineering, and mathematics.
    Major U.S. technology companies today average more than 470 U.S.-
based job openings for skilled positions, while defense companies have 
more than 1,265 each, indicating U.S. business continue to experience 
difficulty in filling positions in the United States for skilled labor 
of all types. A number of companies have thousands of skilled positions 
available, with this level of openings persisting for a year or more. 
This is part of longer-term trend that threatens to harm America's 
economic future, with U.S. companies lacking access to the skilled 
professionals needed to grow and innovate inside the United States.
    Foreign-based educated nurses play a vital role in relieving 
shortages in many U.S. hospitals. However, the entry of most foreign 
nurses is blocked or delayed for years due to a failure to increase 
immigration quotas. Despite nursing shortages, U.S. immigration policy 
actually treats nurses worse than other professions. Medical literature 
shows that the nursing shortages contribute to death and illness for 
U.S. patients. Foreign-educated nurses are only one solution, research 
and interviews find relief from strict immigration quotas would help 
patients, hospitals, and the nation as a whole.
    The need for nurses is projected to continue to increase as the 
U.S. population ages and the birth rates drop. Currently, 12.4% of the 
U.S. population is age 65 or older. That percentage is projected to 
increase to 16.3% in 202 and 20.0% in 2030.
    In this hearing, the subcommittee will explore whether and how the 
current immigration system has failed to respond effectively to these 
economic and health care needs, and what might be done to address this 
situation in the near future.
    The Immigration and Nationality Act authorizes a minimum of 140,000 
visas per year to immigrants based upon employment in the United 
States. All but 5,000 of such employment-based immigrant visas go to 
highly skilled and highly educated immigrants. Yet the wait times for 
these immigrant visas also continues to rise. The current wait for 
highly educated immigrants ranges from two to six years, depending upon 
education and achievement and country of origin. Highly educated 
immigrants from India and China suffer from particularly long backlogs. 
Approximately 400,000 to 500,000 intending employment-based immigrants 
are believed be caught in the legal immigration backlog.
    The 140,000 employment-based immigrant visa numbers allocated 
annually have proven insufficient to meet the needs of U.S. employers 
in certain preference categories, most notably in the second and third 
preferences, which are the categories most used by highly educated, 
high achieving immigrants in STEM fields and nursing.
    More and more, employers from Europe, Australia, Canada, China and 
India are beating U.S. employers for valuable talent. In 2000, 75 
percent of the world's engineers were hired by the U.S. In 2006, 63 
percent of the world's engineers were hired by the U.S. Today, more 
than half of the graduates of U.S. universities in masters and Ph.D. 
programs in science and engineering are foreign-born. We must do all 
that we can to ensure that America stays competitive in math, science 
and engineering. America must continue to attract the best and the 
brightest innovators to venture to the U.S. to help us maintain our 
advantage.
    Notably, there are two legislative proposals that would address 
this problem. The first, H.R. 6039, a bipartisan bill authored by 
Congresswoman Zoe Lofgren, would provide that masters and Ph.D. level 
graduates from U.S. U.S. universities in science, technology, 
engineering, and math could accept employment offers from American 
companies and receive a permanent resident visas. There are an 
estimated 12,000 graduates per year in this category.
    The second is H.R. 5924, the Emergency Nursing Supply Relief Act, a 
bipartisan bill introduced by Congressman Wexler and Congressman 
Sensenbrenner. This bill provides a three-year exemption from current 
Employment-Based visa caps for up to 20,000 RNs and physical therapists 
each year. The bill is also designed to enhance the training and 
retention of U.S.-educated nurses, applying a $1,500 fee on employers 
for each application for a green card for grants to U.S. nursing 
schools, which have turned away over 100,000 applications. H.R. 5924 
would also incorporate a pilot program for retention grants, subject to 
appropriations, that will fund career enhancement training for 
healthcare workers.
    I welcome the witnesses' insightful testimony. Thank you, I yield 
the balance of my time.

                                <F-dash>

 Prepared Statement of the Honorable Earl Pomeroy, a Representative in 
                Congress from the State of North Dakota
    Chairwoman Lofgren and Ranking Member King, I would like thank you 
for holding this important hearing to discuss methods to address 
shortages of highly skilled workers, including health care 
professionals in our country.
    Right now, we are in the middle of a severe shortage of physicians 
in the United States, especially in rural and lower income communities. 
This problem is expected to get much worse in the coming decades, with 
experts saying that by 2020, the United States will have a shortage of 
85,000 to 200,000 doctors. Without a doubt, this projected shortage 
will hit rural and low-income areas the hardest. It is imperative that 
Congress act now to ensure that these vulnerable populations have 
access to qualified physicians and needed medical services.
    To help address the shortages, Congress created the Conrad 30 
program in 1994. Under this program, foreign doctors who have received 
medical training in the United States are granted a waiver from a visa 
requirement to return to their home country for two years. In exchange 
for this waiver, the doctors must commit to providing health care to 
underserved populations in the United States for three years. In the 
nearly 15 years of this program, thousands of doctors have been placed 
in rural and low-income areas in all 50 states.
    Unfortunately, at a time when the need for doctors is growing, the 
number of doctors entering the Conrad 30 program is in decline. For 
that reason, I introduced H.R. 5707, the Conrad State 30 Improvement 
Act. This legislation makes the Conrad 30 program permanent. 
Importantly, the bill improves incentives for doctors to enter the 
program by providing a green card cap exemption for doctors who 
complete the program. In addition, it creates a means by which the 
current cap of 30 doctors per state under the program can expand, while 
still protecting those states that have had a hard time recruiting 
doctors under the program.
    There have been discussions within the medical community for years 
about the best way to expand the Conrad 30 program, and this 
legislation is the first approach universally supported by the medical 
community. Today, I would like to insert letters into the record in 
support of this bill from the following organizations:

        <bullet>  Association of American Medical Colleges

        <bullet>  American Medical Association

        <bullet>  American College of Physicians

        <bullet>  American Hospital Association

        <bullet>  Health Partners Medical Group and Clinics

        <bullet>  Immigration Voice

        <bullet>  National Cooperative of Health Networks Association

        <bullet>  National Health Care Access Coalition

        <bullet>  National Organization of State Offices of Rural 
        Health

        <bullet>  National Rural Health Association

        <bullet>  National Rural Recruitment and Retention Network 
        (3RNet)

        <bullet>  North Dakota Hospital Association

    I appreciate your attention to this important program, and I look 
forward to working with you on this legislation as we move forward. The 
Conrad 30 program has greatly benefited my state, and I believe that 
the changes to this program will be valuable for helping to combat the 
growing shortage of physicians. Thank you.

                                <F-dash>

  Prepared Statement of Mary Amundson, M.A., Center for Rural Health, 
   University of North Dakota School of Medicine and Health Sciences
    My name is Mary Amundson and I am an assistant professor at the 
Center for Rural Health, University of North Dakota School of Medicine 
and Health Sciences in Grand Forks, North Dakota. Thank you for 
allowing me to provide testimony on the Conrad State 30 program which 
helps to address a vital issue facing not only rural America but also 
urban areas across the country as well.
    I have been working in the area of physician recruitment and 
retention for the past nineteen years, working with communities and 
health care providers to improve access to primary care services 
through a variety of federal and state programs.
    Access to health care is a fundamental issue facing America's rural 
citizens. Rural Americans account for approximately one-fourth of the 
U.S. population; however, only about 10 percent of the physicians 
practice in rural areas. Rural communities in North Dakota, and 
throughout the country, are experiencing the closing of essential 
access points such as rural primary care clinics, home health care 
services, and even rural ambulances. The health care safety-net for 
rural America is threatened and the health status of rural Americans is 
compromised. Rural Americans do not seek unnecessary services, they do 
not seek more than what they need; they do however, expect that their 
legitimate access to health care services are commensurate with meeting 
the service needs of populations in more urban settings.
    The Conrad J-1 Visa Waiver Program initiated in 1994 has been a 
very important program not only for North Dakota but for all 50 States 
and the District of Columbia. The amendments proposed in this new 
legislation will increase the supply of physicians to underserved areas 
all across the country.
    Physician shortages are not unique to North Dakota but are evident 
in all 50 states and the District of Columbia. The demand for primary 
care physicians, especially the specialties of family medicine and 
general surgery is at an all time high. For example, the American 
Academy of Family Physicians (2008) notes a steady decline in the 
number of students choosing family medicine from 1997-2007. Today's 
medical students who are tomorrow's physicians, are not choosing 
primary care due, in part, to life style and income which negatively 
impacts access to care for those citizens living in rural areas where 
the shortage of providers is most evident. ``Departing from past 
reports, the 16th Report to Congress from the Council on Graduate 
Medical Education (COGME) report warns of a physician deficit of 85,000 
by 2020 and recommends increases in medical school and residency 
output.'' \1\ Added to this dilemma is the fact that, according to the 
American Medical Association, 250,000 active physicians will retire by 
2020.
---------------------------------------------------------------------------
    \1\ COGME's 16th Report to Congress: Too Many Physicians Could Be 
Worse Than Wasted. Robert L. Phillips, Jr, MD, MSPH1, Martey Dodoo, 
PhD1, Carlos R. Jaen, MD, PhD2 and Larry A. Green, MD1
---------------------------------------------------------------------------
    In 2004, the U.S. Department of Health and Human Services reported 
that 34.9 million Americans live in federally-designated health 
professional shortage areas where there is less than one primary care 
physician for every 2,000 persons in urban, suburban, and rural areas. 
Nationally, 67 percent of the non-metropolitan areas in the U.S. are 
located in federally designated Health Professional Shortage Areas. By 
way of example, in North Dakota, 81 percent of the state is located in 
Health Professional Shortage Areas. Further, 91 percent of the state is 
located in Medically Underserved Areas which are also eligible areas 
for the Conrad Program.\2\
---------------------------------------------------------------------------
    \2\ Medically Underserved Areas are calculated based on population 
density, infant mortality/low birth-weight, provider ratios, and 
percent elderly
---------------------------------------------------------------------------
    Health provider need is determined by the number of vacancies or 
job openings. For example, on a recent survey of health care facilities 
in North Dakota, 46 percent of our health care facilities (32/69) 
reported vacancies for family medicine or internal medicine physicians. 
Of the facilities recruiting these providers, 73 percent of the sites 
were located in underserved areas.
    If it were not for the Conrad J-1 Visa Program, I can assure you 
that more of our rural health care facilities all across the country 
would be closed today. For example, the health care facility in Crosby, 
ND, a town of about 1,000 people, utilized this program starting in 
1995. From 1995-2005, the community recruited five physicians through 
this program that sustained their health care services. These 
physicians allowed the continuation of services to the citizens of 
Crosby until a U.S. physician was finally recruited to the community 
this past year. The Conrad Program provided a much needed bridge to 
services until a more permanent physician could be found. Scenarios 
like these can be cited in communities all across the nation 
particularly in the Midwest and West.
    Although there is a call from the Association of American Medical 
Colleges to increase medical school class size, this will take time 
which our fragile rural health care systems don't have; our health care 
systems simply won't survive. Immediate policy solutions to the 
physician shortage problem are needed today.
    The initial legislation enacted by Congress in 1994 provided a much 
needed resource to aid communities in recruiting providers; however, 
due to a decrease in the number of physicians entering training on the 
J-1 Visa, changes are needed. The Conrad 30 program has been very 
successful in providing 5,732 waivers from 2001-2007 and the proposed 
amendments by Senator Conrad will make it even stronger.
    As I have stated, the Conrad 30 program is essential in increasing 
and assuring access to care for millions of Americans and we are 
appreciative of this program. However, advocating for its re-
authorization every two years is precarious for these Americans. 
Consequently, the proposed legislation that makes the program permanent 
is extremely important to stabilizing health care services.
    States are seeing a steady decline in the number of J-1 physicians 
applying for Conrad waivers from a high of 1,033 in 2003 to 866 waivers 
in 2007.\3\ This decline is due to the increase in the number of 
physicians entering the country on H-1B Visas. These visas do not 
require service to the underserved; these physicians simply need an 
employer. Policy changes need to be included that address the H-1B visa 
issue.
---------------------------------------------------------------------------
    \3\ Texas Primary Care Office, Conrad 30 Program and from the GAO 
Report released in November 2007.
---------------------------------------------------------------------------
    The Conrad State 30 Improvement Act proposes five principal reforms 
to the Conrad program. First, the Conrad State 30 Improvement Act would 
make the program permanent. Second, the act would allow physicians on 
H-1B visa to obtain a Conrad 30 waiver slot in return for a three-year 
service obligation in a federally designated shortage area. Third, the 
act would offer a green card cap exemption for physicians who have 
completed the Conrad 30 program. Fourth, the bill would provide 
increased flexibility for states to manage the program to meet their 
needs by increasing the Flex slots from five to ten per state. These 
slots are used for doctors employed at facilities that are not located 
in federally designated shortage area that serve patients who live in 
these designated areas. Finally, the bill would create a fair mechanism 
which would allow the 30 doctor per state cap to increase under certain 
conditions.
    When the Conrad J-1 Visa Waiver program was first implemented in 
1994, not all states participated in the program. But within a few 
years, states were realizing the benefits of this program and all 
states now participate. This is a very successful program and is 
helping to address our needs as a nation to improve access to care 
among the nation's most vulnerable populations. The amendments in the 
Conrad State 30 Improvement Act are important to further improve the 
program and ensure that physicians are available to serve the nations 
underserved.
    In conclusion, the Conrad State 30 Improvement Act strikes the 
right balance between big and small states and has support from across 
the medical community, from groups that have disagreed in the past on 
how to improve the program. Those groups that have endorsed the bill 
include the American Hospital Association, the American Medical 
Association, the Association of American Medical Colleges, American 
College of Physicians, the National Cooperative of Health Networks 
Association, National Health Care Access Coalition, National 
Organization of State Offices of Rural Health, National Rural Health 
Association, National Rural Recruitment and Retention Network (3RNet), 
North Dakota Hospital Association, and HealthPartners (MN).
    Thank you for this opportunity to write in support of a critical 
program that improves the lives of millions of Americans.
    I would be happy to work with you to elaborate on issues and answer 
your questions. For information regarding this testimony, please 
contact:

                                <F-dash>

    Prepared Statement of Jack Krumholtz, Managing Director Federal 
                     Government Affairs, Microsoft
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

                  Letter from Darrell G. Kirch, M.D., 
          the Association of American Medical Colleges (AAMC)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

          Letter from Rick Pollack, Executive Vice President, 
                   the American Hospital Association
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

   Letter from Roger Cochetti, Director--U.S. Public Policy, CompTIA
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

   Letter from Immigration Voice, the National Cooperative of Health 
 Networks Association, the National Health Care Access Coalition, the 
 National Organization of State Offices of Rural Health, the National 
Rural Health Association, the National Rural Recruitment and Retention 
       Network (3RNet), and the North Dakota Hospital Association
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

 Letter from Michael D. Maves, MD, MBA, Executive Vice President, CEO, 
                    the American Medical Association
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

           Letter from Nancy McClure, Senior Vice President, 
                HealthPartners Medical Group and Clinics
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
